<html>
<title> - HIRING AND RETAINING VETERANS FOR THE MODERN DAY WORKFORCE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


       HIRING AND RETAINING VETERANS FOR THE MODERN DAY WORKFORCE

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         TUESDAY, JUNE 26, 2018

                               __________

                           Serial No. 115-69

                               __________

       Printed for the use of the Committee on Veterans' Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-807                    WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
       
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   CONOR LAMB, Pennsylvania
JODEY ARRINGTON, Texas               ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
BRIAN MAST, Florida
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BILL FLORES, Texas                       Member
JIM BANKS, Indiana                   MARK TAKANO, California
BRIAN MAST, Florida                  LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            C O N T E N T S

                              ----------                              

                         Tuesday, June 26, 2018

                                                                   Page

Hiring And Retaining Veterans For The Modern Day Workforce.......     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     2

                               WITNESSES

Ms. Elizabeth O'Brien, Senior Director of Military Spouse 
  Programs, Hiring Our Heroes, U.S. Chamber of Commerce 
  Foundation.....................................................     3
    Prepared Statement...........................................    37

Brigadier General Gary M. Profit (Ret.), Senior Director, 
  Military Programs, Walmart.....................................     5
    Prepared Statement...........................................    31

Mr. Matt Kress, Manager, Veterans and Military Affairs, Starbucks 
  Coffee Company.................................................     7
    Prepared Statement...........................................    39

Mr. Charles J. Sevola Jr., Vice President, Head of Veterans 
  Initiatives, Prudential Financial..............................    10
    Prepared Statement...........................................    41

Mr. Robert Douthit, Senior Director, Americas Customer Solutions 
  Centers, Dell EMC..............................................    12
    Prepared Statement...........................................    44

                        STATEMENT FOR THE RECORD

Letter From: Joe M. Naylor.......................................    47

 
       HIRING AND RETAINING VETERANS FOR THE MODERN DAY WORKFORCE

                              ----------                              


                         Tuesday, June 26, 2018

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                       Subcommittee on Economic Opportunity
                                                   Washington, D.C.
    The Subcommittees met, pursuant to notice, at 2:02 p.m., in 
Room 334, Cannon House Office Building, Hon. Jodey Arrington 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Arrington, Bilirakis, Banks, Mast, 
O'Rourke, Takano, Rice, and Correa.
    Also Present: Representatives Roe.

         OPENING STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    Mr. Arrington. Good afternoon, everybody. The Subcommittee 
will come to order. I want to thank you all for being here with 
us today for the hearing entitled ``Hiring and Retaining 
Veterans for the Modern Day Workforce.''
    But before I give any formal introductory remarks, I would 
like to ask my friend from Texas to introduce his special 
guest, and you can imagine who they might be. They are the 
cutest of people in this room. So--
    Mr. Takano. Oh, don't talk about me.
    [Laughter.]
    Mr. Arrington. Mr. Takano. Mr. O'Rourke, please introduce 
your special guest, and then I will say a few words about 
Takano.
    [Laughter.]
    Mr. O'Rourke. Thank you, Mr. Chairman. And in exchange for 
this privilege, I will waive my opening comments. But my son 
Ulysses, who is 11, and his brother Henry, who is 7, and his 
sister Molly, who just turned 10, are with us on a visit to the 
Capitol, their first in a long time.
    Mr. Arrington. Do you want to stand up?
    Mr. O'Rourke. Do you guys want to stand up, so everyone can 
see who you are?
    [Applause.]
    Mr. O'Rourke. So, anyhow, I am very lucky that they are 
here with us and thanks for introducing them.
    Mr. Arrington. You bet.
    Mr. O'Rourke. I really appreciate it, thank you.
    Mr. Arrington. Molly, right?
    Mr. O'Rourke. And thanks to our panel. I am looking forward 
to your testimony and having a very productive conversation 
today. I am grateful that you are here. Thank you.
    Mr. Arrington. You all aren't nearly as cool as those kids, 
but I will try to do my best when we introduce you. But we are 
honored that you are here and what you have done to support our 
veterans, and the recruiting and the hiring and the retaining 
of these heroes. And giving sort of special consideration to 
the assets that they are, but also to the unique challenges of 
serving this country in the armed services and coming back as a 
civilian. And I think they are an incredible asset, if we are 
intentional about it.
    And companies like the ones you represent have been 
intentional and we want to understand what you are doing and 
how it is going and why it is working, and we want to increase 
the things that you are doing exponentially. We want to 
highlight them and brag on them, and we want others to follow 
your lead. But, you know, we have an economy and I don't want 
to be partisan about it, but I think the pro-growth policies 
that we have put in place, we are starting to see some growth. 
And I think to have millions of surplus jobs and low 
unemployment rates is great for everybody, not just our 
veterans, but certainly this is a season that is welcomed in 
the life of this country and this country's economy.
    And we have got a lot of returning servicemen and women who 
are transitioning as veterans, again, who have some unique 
skills and unique experiences. We need to work, and we are, on 
a program called the Transition Assistance Program. I hope to 
get your thoughts on that today, but so that we can improve 
that process by which we engage our Active duty men and women 
before they leave, and assess their health challenges and their 
skills and the gaps on the education and workforce training, 
and make sure we empower and equip them to maximize their full 
potential as civilians.
    So we, again, are appreciative of what you are doing for 
our veterans and we are anxious to jump right in to hear from 
you all, and that is why I am going to depart from my 
traditional, sort of formal introductory remarks.
    Beto, why don't you say a word or two just about them being 
here. I know you said you would waive it, but say a couple 
words to these guys.

       OPENING STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. O'Rourke. Well, again, I am grateful for what you do. I 
know in the case of Prudential and other large employers in El 
Paso, you haven't waited for the Government to give direction, 
you have taken the lead yourselves in making sure that that 
transition is a successful one.
    And one of the things that I love about the approach that 
each of you represent to meeting this opportunity with our 
veterans is that they represent this opportunity given their 
experience, their expertise, their service to do something 
phenomenal for your organizations or the organizations that you 
represent, for the communities in which they live, and for our 
country. And so often we talk here about our failure to meet 
the challenge for health care or housing or the Post-9/11 GI 
Bill, and where there are deficiencies we have got to ensure 
that we are responsive to that, but I love the idea behind 
today's hearing, which is how do we make the most out of what 
those veterans are ready to give back.
    And so for all those who are here today, for Prudential, 
for your work in El Paso, we are really grateful for the lead 
that you have already taken. I am looking forward to any 
direction you can give us, any guidance that we can follow and 
implement in that Transition Assistance Program that the 
Chairman has been working on, or anything else that we can do 
in our capacity as Members of Congress.
    So, thank you for being here, I am looking forward to the 
conversation. And, Mr. Chairman, again, thanks for pulling this 
together.
    Mr. Arrington. You bet. Well said.
    Now let's recognize our panel. With us today we have Ms. 
Elizabeth O'Brien, Senior Director of Military Spouse Programs 
for Hiring Our Heroes at the United States Chamber of Commerce. 
Glad that you are here with us. Brigadier General Gary M 
Profit, Senior Director for Military Programs at Walmart; Mr. 
Matt Kress, Manager for Veterans and Military Affairs at 
Starbucks; Mr. Charles Sevola, Vice President and Head of 
Veterans Initiatives at Prudential Financial; and, Robert 
Douthit, the Senior Director of Americas Customer Solutions 
Center at Dell.
    Again, thank you guys for being here with us. We will now 
recognize each of you for 5 minutes for your opening statement 
and, Ms. O'Brien, we will start with you from the Chamber of 
Commerce.

                 STATEMENT OF ELIZABETH O'BRIEN

    Ms. O'Brien. Good afternoon, Chairman Arrington, Ranking 
Member O'Rourke, and distinguished Members of the Subcommittee. 
I am Elizabeth O'Brien, our Senior Director of Military Spouse 
Programs at U.S. Chamber of Commerce's Hiring Our Heroes. I am 
a military spouse of 12 years and at one point sustained six 
moves in 8 years. So our background on employment is fast and 
knowledgeable.
    Hiring Our Heroes was founded in 2011 as a nationwide 
initiative of the U.S. Chamber of Commerce Foundation in 
response to the crisis situation facing our veteran population 
struggling to find employment opportunities. Hiring Our Heroes 
assists military veterans, transitioning servicemembers, and 
military spouses in finding meaningful employment opportunities 
in a 21st century workforce.
    Our program accomplishes this goal in a myriad of ways, 
including hiring fairs, on-installation transition summits, 
career development, and networking events; focused research, 
best practice development, and communication campaigns, in 
partnership with many of our sponsorship companies here today. 
To date, we have hosted over 1100 hiring events around the 
United States of America and on U.S. military installations 
around the world.
    Incredible transformation has occurred in the space of 
military hiring since 2011. Currently, our veteran unemployment 
is at 3.7 percent, and as the employment landscape for veterans 
and military spouses has changed, we have evolved our 
operations. Why? We have to remain effective in serving our 
veteran and military families. We are looking to connect them 
with not just a job, but the right job.
    Innovative programming has allowed us to move left of 
transition; it is a process, one that requires preparation. 
Over the last 2 years, our summits have doubled at military 
installations around the country and around the world. We have 
expanded to dozens of new installations and this year we were 
able to host our first transition summits on Coast Guard bases, 
having an opportunity to serve a population we had not been 
engaged with before.
    One of the most innovative programs that we have created is 
our Corporate Fellowship Program, which we stood up in 2015. 
Developed under the guidelines of the Department of Defense's 
Skill Bridge Job Training Initiative, it is a 12-week 
fellowship program. We take Active duty servicemembers in their 
last 90 days of transition, place them with corporate partners 
around the country, and often cases leveraging the permissive 
TDY option through the Army. So we can take a fellow or 
servicemember from Hawaii and they want to retire to Atlanta 
and place them with a company in Atlanta.
    To date, 13 locations in the United States, a thousand 
fellows have graduated. We have a 90-percent job offer rate; 
180 companies have hosted fellows with a starting salary of 
$88,000. The success of the program has led to the development 
of pilot programs for veterans and military spouses with the 
Military Corps Career Connect.
    But we as a country have to understand that veterans are 
part of a military family, we have to understand the needs of 
21st century military families. We have over 700,000 Active 
duty military spouses around the world, 92 percent of them are 
female. This does not include our veterans' spouses that have 
returned home to many of your communities away from military 
installations. We define a military spouse as any individual 
who identifies as having their career impacted by a military 
member's service to the Nation.
    Our military spouses are unemployed at a rate of four times 
the national average of their civilian counterparts, four times 
the national average. We want and need opportunities to have 
dual-income households, as is the norm for married Americans 
across the country with children, over 60 percent. We are not 
at that rate.
    Seventy one percent of employed military spouses agree that 
having two incomes is vitally important to their family, and 
yet we stand to lose over $12,000 a year in income for spouses 
that do work, and over a course of a 20-year military career, 
over $189,000 in lost wages.
    We are younger and more highly educated than the average 
American adult of working age. The lack of employment 
opportunities creates stress and influences a military family's 
desire and want to stay in our all-volunteer force.
    Our program has responded appropriately. We have launched 
and created over 50 networks around the world to serve military 
spouses, that is our Military Spouse Professional Network, with 
15,000 members. We have created economic empowerment zones, 
grassroots, localized efforts that create connections and 
collaboration between regional and national employers, 
launching in San Antonio, Tampa, Colorado, and the great State 
of Washington, with another six roll-outs anticipated by the 
end of the year.
    On Thursday, we will host our Military Spouse Employment 
Summit at the U.S. Chamber of Commerce, where we will address 
many of these issues and launch Part 2 of our study.
    In conclusion, we are proud at Hiring Our Heroes to serve 
our veterans, servicemembers, and a wide array of private and 
public sector members. We are committed to the mission of 
connecting veterans and military spouses around the world, and 
we will continue to unite our partners across the Nation in our 
common mission as we work together to continue to achieve 
fundamental change. And I call upon everybody in this room to 
help us get military spouses out of the fine print as we move 
forward across this country to serve our families.
    Chairman Arrington, Ranking Member O'Rourke, and Members of 
the Subcommittee, I thank you again for the opportunity to 
testify and look forward to answering your questions.

    [The prepared statement of Elizabeth O'Brien appears in the 
Appendix]

    Mr. Arrington. My only question is I thought that the Great 
State was reserved for only one state, Ms. O'Brien.
    [Laughter.]
    Mr. Arrington. But I will reserve--
    Ms. O'Brien. It appears everywhere we go, everybody is the 
Great State.
    Mr. Arrington. You have got to be proud of your state. Ms. 
O'Brien, thanks for your comments.
    General Profit, we recognize you now for 5 minutes.

      STATEMENT OF BRIGADIER GENERAL GARY M. PROFIT (RET.)

    General Profit. Chairman Arrington, Ranking Member 
O'Rourke, and Members of the House Veterans' Affairs 
Subcommittee on Economic Opportunity, on behalf of Walmart, 
Incorporated, I want to thank you for the opportunity to rejoin 
you today to talk about hiring and retaining veterans for the 
modern day workforce.
    I had the privilege of testifying before the Full Committee 
in 2014 and, as I stated then, I am grateful for your 
leadership and partnership in honoring our Nation's veterans' 
service and sacrifice, and for all you do to aid in their 
transition to civilian life.
    Walmart has a rich history with veterans, those who serve 
on Active duty and in the Reserve and the Guard, and veteran 
and military families. Arguably, it began with Captain, U.S. 
Army, Sam Walton, who founded Walmart over 50 years ago. His 
legacy has been enriched by countless veteran associates over 
the years and has recently been enhanced by our Veterans 
Welcome Home Commitment, established in 2013 and expanded in 
2015, when we pledged to hire 250,000 veterans by 2020.
    I am proud to say that since 2013 we have added more than 
200,000 veterans to our workforce, and promoted more than 
28,000 to roles with higher pay and greater responsibility.
    When we announced our commitment in 2013, our goal was put 
returning post-9/11 U.S. veterans back to work. At that time, 
their rate of unemployment was disturbingly high. Now, it is 
the lowest it has been in decades and we'd like to think we 
have played a small part in helping bring that number down. 
Rather than taking a victory lap, however, we must remain 
vigilant and know that more work remains.
    Through my interactions with veterans over the years, I 
have learned that we have a much better chance of retaining our 
veteran hires if they have an understanding of the company's 
mission, if they are able to make a positive impact to their 
team or business quickly, and if they feel supported. 
Furthermore, we found that a clear vision of a new veteran 
associate's career path within the organization is one of the 
more crucial pieces to veteran recruitment and retention.
    To realize those ends, our recruiting and hiring process 
combines technology and personal consultation to achieve scale 
without sacrificing the human touch. And perhaps one of our 
most successful practices is our approach to on-boarding where 
we place new hires with seasoned associates who are veterans, 
military spouses, currently serving members of the Guard and 
Reserve, or associates who just have an affinity for those who 
have served.
    In a world in which new skills are required to meet the 
rapidly changing demands of our customers, Walmart is investing 
in training and talent development for our front-line 
associates, aimed at building foundational and advanced skills 
through our Pathways Program and Academies.
    An additional business initiative that I feel holds 
tremendous value is our Military Family Promise. It guarantees 
a job at a nearby store or Club for all military personnel and 
military spouses employed by the company who move to a 
different part of the country because they or their spouse have 
been transferred by the U.S. military. The Military Family 
Promise allows military spouses in particular to remain in the 
same personnel and pay systems, and turn jobs into careers.
    Outside of what we do for our associates, Walmart actively 
seeks products from veteran-owned businesses to add to our 
stores and online assortment. Two weeks ago, we held our fifth 
annual Open Call where we invited suppliers to our home office 
to pitch products made in the U.S. Out of more than 450 
companies that attended, 22 self-identified as veteran-owned 
businesses. And as a founding member of the Coalition for 
Veteran-Owned Business, Walmart is committed to help grow and 
support veteran-owned businesses in communities throughout the 
U.S.
    In 2011, Walmart and the Walmart Foundation committed $20 
million through 2015 to support veterans and their families 
with assistance programs that provide job training, transition 
help, and education. With the early completion of the 
commitment in May of 2014, Walmart and the Walmart Foundation 
renewed the commitment, announcing an additional $20 million 
through 2019.
    We are supporting many organizations doing great work 
through these commitments and I would like to call out just 
three of them: The Institute for Veterans and Military Families 
at Syracuse University, the Henry M. Jackson Foundation, and, 
as the number of women joining our U.S. Armed Forces and the 
number of female veterans reintegrating into civilian life have 
grown, Boston University School of Medicine's Women Veterans 
Network.
    As we look to the future, we see great potential to address 
the remaining barriers to a successful transition from military 
service to civilian life, but only through collaboration and a 
shared vision will we realize it.
    Our goal is to synchronize efforts and empower every 
veteran and his or her family to lead a full and meaningful 
life by achieving optimal health and wellbeing, leveraging 
education and workforce readiness, and fostering employment and 
entrepreneurship opportunities. With clearer data, a unifying 
vision, and leading strategy we can better serve our veterans 
and their families; enhance our national security by 
contributing to the preservation of the All-Volunteer Force; 
ensure our global competitiveness and civic leadership; bring 
our military, veteran and civilian populations closer together; 
and meet our moral and social obligations to our veterans.
    We salute America's heroes. We are honored to have the 
opportunity to employ them, to learn from them, and to support 
them and their families in every way we can.
    Thanks again to the Subcommittee for its leadership and 
partnership, and for holding this hearing. I appreciate the 
invitation to appear and look forward to answering your 
questions.

    [The prepared statement of Gary M. Profit appears in the 
Appendix]

    Mr. Arrington. Thank you, General.
    Now Mr. Kress, you recognize you for 5 minutes, 
representing Starbucks.

                    STATEMENT OF MATT KRESS

    Mr. Kress. Good afternoon, Chairman Arrington, Ranking 
Member O'Rourke, and Members of the Subcommittee. As a post-9/
11 combat veteran, it is an honor to share with you how 
Starbucks Coffee Company is continuing to support Active duty 
military spouses and veterans as they transition into Starbucks 
partners, as we refer to our employees.
    To give some personal context to my remarks, I spent 22 
years in the Marine Corps between active and reserve service, 
as both a commissioned officer and enlisted Marine. After 
deploying to Iraq in 2004 with Marine Corps Special Operations 
Command, I left Active duty to become a firefighter in Southern 
California. During my time in public safety, I took advantage 
of the Post-9/11 GI Bill, turn a Master's degree to an MBA, 
which took me to Starbucks.
    In November 2013, Starbucks made a groundbreaking 
commitment to hire at least 10,000 veterans and military 
spouses in 5 years. I am proud to say we achieved that goal 
early and in March 2017 set a new goal of hiring 25,000 by 
2025, which we are quickly working towards.
    Throughout this process, we have recognized that serving 
our veterans and military spouses is about much more than 
simply providing jobs. Starbucks understands that the unique 
skills, experiences, and knowledge that they bring through 
their service are tremendously valuable. Our goal, therefore, 
is not only to hire 25,000, but also to create a work 
environment and corporate culture that fosters their personal 
and professional growth.
    A steady paycheck is important when shifting jobs, but 
veterans and their families are not just shifting jobs when 
they leave the service. They are leaving an environment where 
they had a clear sense of purpose and worked closely with 
others towards goals that were much bigger than themselves. I 
am proud to say that Starbucks provides that environment.
    Moving to the topic of innovations, one of our early 
recognitions was the need to evaluate this population through a 
different lens based on their training and life experience. To 
this end, we shifted from a skills-based hiring model to a 
competency model when evaluating job candidates.
    While the job-specific training received in the military 
might not be a direct match for our environment, we know that 
the leadership, teamwork, and other intangible skills are a 
great fit for Starbucks.
    We also know that the enthusiasm and dedication that 
military spouses bring to our stores creates a welcoming 
environment for our customers.
    Parallel to this, Starbucks has focused on preparing our 
field leaders to effectively lead veterans and military spouses 
through an understanding of their unique differences in 
culture, leadership expectations, and even language. One of the 
best ways we have found to achieve this are through immersions 
on military bases where our field leaders and partners get to 
see firsthand the natural teamwork that translates so well to 
our stores.
    We have also listened to our partners and developed or 
improved several programs or policies that are unique to our 
veteran and military populations. For current Reservists, we 
provide 80 hours of flexible leave to facilitate military 
participation. If Guard or Reserve partners are called to 
Active duty, we pay the difference between their Starbucks and 
military wages for up to 78 weeks. Finally, our veteran 
partners can now gift their college achievement plan, which is 
a fully-funded, remote bachelor's degree at Arizona State 
University, to their spouse or child.
    We also recognize the need to build an internal veteran 
cultural competency that not only understands and values 
veterans, but is improved by infusing their values into the 
company's culture. For Starbucks, this started with the 
recognition that much of what has made the company incredibly 
successful parallels military values: a commitment to 
excellence, a strong sense of ethical and moral principles, 
comradery, and empowerment of our partners are among the values 
that makes Starbucks a special place to work and parallels what 
drives our military.
    Another internal cultural piece is the growth of our 
veteran affinity group, the Armed Forces Network, which has 16 
chapters throughout the country. The AFN provides a source of 
mentorship, comradery, and connection for our veterans and 
spouses; it also provides a forum and focal point for building 
our military cultural competency. In return, our veteran 
partners pay it forward by engaging in community volunteer 
activities and represent the best of Starbucks.
    Continuing on the broader question on innovations in the 
space, we are currently focused on meeting the employment 
challenges faced by military spouses. With an unemployment rate 
that is four times the veteran population, we are partnering 
with Hiring Our Heroes, USAA, MOAA, and others to find lasting 
solutions. On our side, we have specifically designed processes 
that assist our military spouses to transfer their jobs to new 
Starbucks locations when the inevitable change-of-duty-station 
orders arrive. We also have flexible leave policies for spouses 
that take into account the reality of deployments, moving, and 
homecoming.
    Starbucks is increasing the opportunities for local 
communities to use our stores to engage with military members 
and their families, expand partnerships with Veterans Service 
Organization, to relevant programming, and using our scale to 
create connections to bridge the military-civilian divide. 
Utilizing our 44 military family stores, which are situated in 
communities near military installations, we are working with a 
range of our partners such as the USO, Blue Star Families, and 
Team RWB to provide needed transition programming and services.
    Our stores are also a hub for organizing partner-driven 
community service projects in conjunction with veterans groups 
The Mission Continues and Team Rubicon. These organizations 
provide veterans and spouses with opportunities to make 
connections in their new communities, as well as leverage their 
considerable skills for the greater good.
    Moving forward, our ambition is to change what it means to 
support their troops. While being thanked for their service is 
appreciated, military members and their spouses wanted to be 
given the opportunity to demonstrate their incredible 
leadership, experience, and talent that they bring to the 
workplace. We will continue driving and refining this effort 
through our policy, storytelling, and partnerships.
    As our dedicated hiring program and veteran cultural 
competency matures, we are increasingly sharing our models and 
lessons learned with others.
    In closing my remarks, I would like to raise opportunities 
for Congress to enable the success of our veterans and military 
spouses.
    First is recognizing and supporting the unique employment 
challenges of our military spouses. A second request is related 
to your 2018 Mulder Transition Improvement Act, Mr. Chairman. 
Giving the transition process greater structure and adding 
counseling and wraparound services are truly important changes 
that will increase the value and impact.
    Thank you for inviting me to speak with you today. After 
serving our country, it is my honor to discuss the Starbucks 
Veterans and Military Spouses Program, and the difference it is 
making in the lives of our military members and their families.

    [The prepared statement of Matt Kress appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Kress.
    We now recognize Mr. Sevola from Prudential for 5 minutes.

              STATEMENT OF CHARLES J. SEVOLA, JR.

    Mr. Sevola. Thank you. Chairman Arrington, Ranking Member 
O'Rourke, and Members of the House Veterans' Affairs 
Subcommittee on Economic Opportunity, my name is Chuck Sevola. 
I am an Army veteran and I head Prudential's Office of Veterans 
Initiatives.
    Thank you for having me here today and the opportunity to 
speak with you about Prudential's veterans programs.
    The mission statement of our Veterans Initiative Office is 
to establish sustainable programs and activities that have a 
positive impact on the lives of veterans and their families, 
helping them to achieve professional success, financial 
prosperity, and peace of mind.
    Our dedicated Office of Veterans Initiatives was formed in 
2010 at the direction of our Chairman, John Strangfeld. 
Prudential strives to be a preferred employer for veterans and 
military spouses, a community leader in supporting Veterans 
Service Organizations, and a national leader in developing and 
sharing best practices for corporate veteran programs.
    We have established a five-pillar strategy to achieve our 
goals. The first pillar, and our primary focus, is education 
and employment. This covers our programs in recruiting, 
training, and retaining veterans and military spouses not just 
for jobs, but for fruitful careers in our firm. Our flagship 
program with this pillar is our VETalent collaboration with 
Workforce Opportunity Services.
    Our second pillar of employee engagement focuses on 
harnessing the passion that exists in our workforce to help 
veterans and their families through volunteerism.
    The third pillar, Thought Leadership, covers our work to 
understand the issues that veterans and their families face, 
and establishing and sharing best practice programs to address 
these issues.
    The fourth pillar is corporate giving. Here we provide 
financial resources through philanthropy and sponsorship to 
Veterans Service Organizations and other like-minded 
organizations to extend our reach beyond what we can do on our 
own.
    Finally, our fifth pillar, Veterans and Military Business 
Support, seeks to find the intersection between the work we do 
with veterans through our corporate social responsibility and 
the work we do as a financial services firm. Our primary focus 
here is bringing Prudential's expertise in financial wellness 
education to the issues that veterans and their families face 
as they transition to civilian life.
    Our multi-faceted approach to our veteran program is robust 
and mutually supporting among the five pillars. Elements of our 
WOS program mentioned previously can be found within each of 
these pillars.
    Founded in 2005, Workforce Opportunity Services is a 
leading nonprofit committed to developing untapped talent from 
under-served and veteran communities through partnerships with 
organizations dedicated to diversifying their workforce. The 
WOS model has its roots in a program developed by Dr. Arthur 
Langer of Columbia University. This program has been adapted 
and branded VETalent at Prudential in 2010 to serve as the 
basis of our veteran training and hiring activities for post-9/
11 veterans.
    One of the key attributes of the Prudential VETalent 
program is its adaptability to a variety of roles. The multi-
phased approach to this program allows a sponsoring company to 
see the progress of candidates in the program and to assess 
their readiness at various checkpoints for eventual hire. This 
program has been used with success in many of our offices 
around the country, but most recently in our newly established 
Business and Technology Center in El Paso, Texas. Of the 
Prudential staff in the El Paso office, more than 50 percent 
are veterans or military spouses, the majority of which were 
sourced using this WOS model.
    Consistent with our desire to be a national leader in 
establishing and sharing best practice programs, we tested and 
refined this WOS Prudential model with the intent of sharing it 
with other like-minded companies to expand its impact beyond 
what Prudential could do on its own. As a result, in close 
cooperation with WOS, this program model has been adopted by 
over 60 other companies around the country.
    In support of our efforts to hire and retain veterans and 
military spouses, Prudential has found it helpful to educate 
hiring managers on the military in general and the value that 
veterans and military spouses bring to the workplace.
    With a very small percentage of our Nation's population 
having a direct connection to military service, there is a lack 
of knowledge and misconceptions that must be overcome by hiring 
managers before they will routinely consider them as a viable 
source for talent. Prudential has developed an in-house 
training curriculum specifically designed to close this gap in 
understanding.
    Private sector programs can effectively be built on 
governmental initiatives to help advance veterans and military 
spouse employment. An excellent example of a successful program 
is the Corporate Fellowship Program of the Hiring Our Heroes 
organization. Not only does this intern program allow the 
fellow to begin the acclimation process into corporate America 
much earlier, but also gives the prospective employer an 
extended period to judge fit into company culture. These 
factors play a positive role in job satisfaction and retention.
    Prudential has created an integrated five-pillar strategy 
to focus our efforts in education and employment of veterans 
and military spouses. By adapting an effective model created by 
Workforce Opportunity Services, Prudential and WOS have created 
a program that not only has been a key enabler in our own 
staffing activities, but also in the staffing activities of 
other companies interested in tapping into this valuable talent 
pool.
    Hiring manager training, as well as participation in select 
government programs, have been a significant factor in the 
overall success in achieving our mission.
    Prudential would like to thank the Committee for its 
invitation to speak with you and share our experiences. We 
stand ready to work with others to help further expand the WOS 
program or any other that will be beneficial to servicemembers, 
veterans, and their families.
    I am happy to answer any questions that you may have. Thank 
you for having me.

    [The prepared statement of Charles J. Sevola appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Sevola.
    Mr. Douthit with Dell, you are now recognized for 5 
minutes.

                  STATEMENT OF ROBERT DOUTHIT

    Mr. Douthit. Good afternoon, Chairman Arrington, Ranking 
Member O'Rourke, Members of the Committee, thank you for 
inviting me today to testify on ``Hiring and Retaining Veterans 
in the Modern Day Workforce.''
    My name is Robert Douthit, I am the Senior Director for 
Dell's Customer Solutions Centers for the Americas, and a 20-
year Army veteran, serving from 1986 to 2006. I come from the 
perspective of five deployments, two combat deployments to Iraq 
in '90 and '91, Somalia in 1993, peace-keeping deployments to 
Bosnia in the summer of 1998, peace-keeping deployments in 
Kosovo in 1999, and commanding an Air Cavalry squadron in the 
Anbar Province of Iraq from 2003 to 2004. I appreciate the 
opportunity to be here today.
    I would like to start by noting that the U.S. Department of 
Defense was one of Dell's first customers and, accordingly, we 
have a long tradition of identifying with and working for 
United States military. And we greatly appreciate, as I expect 
you do, the skills that veterans bring to our workforce and our 
business.
    My testimony today has three objectives: to explain why 
Dell is a vigorous recruiter of veterans and their spouses; 
explain how we recruit veterans and their spouses; and, 
finally, offer a few suggestions on how the Federal 
Government's Military Transition Assistance Program, or TAP, 
would enhance veteran hiring.
    Dell recruits veterans and their spouses because we 
believe, as we expect again you do, the military provides a 
rich source of talent, especially in key areas of worker under-
representation, and we believe that a diverse workforce is an 
economically and dynamically effective workforce.
    A recent study found that when compared to their peer's 
student veterans using the Post-9/11 GI Bill represent the 
single best source of potential and current achievers in higher 
education with nearly 100,000 graduating annually.
    In 2001, Dell established its Veterans and Supporters 
Employee Resource Group, or ERG, as a means for veterans within 
the business to connect, support, and mentor each other. The 
success of the Veterans ERG is due in large part to the 
dedicated commitment of our Chairman, Michael Dell himself, his 
senior leadership management throughout the company, and, most 
importantly, those veterans actively engaged in the ERG.
    In terms of how we recruit veterans and spouses, we 
participate in a number of on-base military transition fairs, 
where veterans begin to look for employment outside their 
military service. Specifically, our Dell Talent Acquisition 
Team participates in monthly partner calls with the Texas 
Veterans Commission to identify talent opportunities for 
businesses seeking workers with those kills that military 
service and training provides.
    Additionally, Dell works with a variety of programs and 
partners, many of which you have heard previously mentioned 
here today. We also use these organizations as a source of 
well-trained future Dell team members. My written testimony 
lists many of those veteran activities and programs that we 
work with and from which we recruit.
    At Dell, we also have a social media strategy known as 
Heroes Among Us. This campaign has reached 6.2 million 
potential readers. Additionally, on our military jobs page, we 
have seen an over 100-percent increase in veterans actually 
tabbing the ``Apply'' click for a job in the last year.
    In terms of suggestions for how the Government might 
improve the member's transition experience, as you know, some 
employers may not understand the many skills that the military 
service provides or that veterans acquire during their service 
and, accordingly, those businesses may not understand the value 
that veterans bring to their specific businesses. Again, my 
written extended testimony offers suggestions to improve that 
transition experience. Most of these do not require additional 
funding.
    Most notable among those suggestions are invigorating the 
existing military TAP program with a curriculum aligned more to 
career exploration rather than applying for a role and writing 
a resume; initiating programs that train the civilian, the 
business HR and talent acquisition teams on what the military 
provides, and allowing that talent to actually participate in 
the TAP program on base to learn firsthand as that transition 
occurs prior to the military member's separation; explore the 
opportunity to permit government TAPs professionals to visit on 
site with the myriad businesses seeking veterans for their 
businesses, so that those TAPs professionals might learn the 
inner workings of the businesses looking to hire veterans.
    Again, it is my honor to appear before you today and I 
would like to thank the Committee for your efforts in exploring 
how we might improve veteran hiring opportunities, and I am 
happy to answer any questions you have.
    Thank you.

    [The prepared statement of Robert Douthit appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Douthit. And, again, we 
appreciate you and your service to our country in the military 
and now in service to your brothers and sisters who are 
veterans, and through your positions in corporate America and 
at the U.S. Chamber.
    I am going to ask that our Chairman, we are honored in the 
Subcommittee to be joined by the Chairman of the VA Committee, 
Dr. Phil Roe, from the great state of Tennessee.
    Dr. Roe, Chairman Roe, we yield as much time as you would 
like.
    Mr. Roe. Thank you, Mr. Chairman. And just to point out, we 
have two Texans in the seat, and there wouldn't be a Texas if 
it weren't for Tennessee. I just want to point that out as we 
get started.
    [Laughter.]
    Mr. Roe. We had to bail them out a number of years ago.
    I think I first of all want to thank all of you all. And I 
remember very specifically a 2014 hearing we had where Walmart 
came in here and said we will offer any honorably discharged 
veteran a job. I remember that like it was yesterday and I 
appreciate very much you're doing that. That meant a lot to I 
think veterans around. And we got on the airplanes, we do three 
or four times a week get on an airplane, and it didn't happen 
during my generation, but now those military young people in 
uniform can get on the airplane first. I sit in a lot of 
airports, unfortunately, and it makes me proud as an American 
to see our country treating this generation of veterans 
different than other generations, Vietnam specifically had been 
treated.
    So I want to thank all of your companies for what you are 
doing, stepping up.
    You know, one of the things that--there are a couple things 
that have been brought up, one was the GI Bill, Post-9/11 GI 
Bill. I used the GI Bill when I got out of the Army in 1975 and 
I still appreciate my country investing $300 a month in me for 
2 years, to this day I appreciate that.
    I know that right now the Student Veterans of America have 
come in and met with us a number of times, and it is over a 70-
percent completion rate for those. It is an amazing statistic. 
So that is an investment that is paying off big time that you 
all can leverage.
    One of the things that Secretary, then Secretary Shulkin 
wanted to do is reduce veteran suicide. And General Haston, who 
is our Guard Commander in Tennessee, when he took over in 2011, 
he had four suicides the first 40 days he commanded the Guard 
in Tennessee. He said we had to do something. And he started a 
program called Guard Your Buddy, but what he found was 
relationships and money, finances were a big part of the 
problem. If you have a job, a good, steady job that takes care 
of the finances part, and that is part of the issue I think 
these young people leaving the military and separating.
    And that is why I was going to ask Mr. Douthit, the TAPs 
program--the TAP program, I should say, is a good program, but 
what I found in talking to employers in my district is they 
don't know how--because we don't have a military base, I grew 
up in Clarksville, Tennessee where there was a huge base there, 
but where they are, they want veterans, they can't find them. 
And so I think we need to find a way to make it easier for 
businesses.
    I had a friend of mine in Nashville who is a CEO of a large 
health care company, he said, look, I want to find out how I 
can hire these young company commanders and bring them into my 
system. They have already got the leadership skills, they have 
got all that, the things that I want to help eventually run my 
hospitals. They didn't know how to connect it to and I think 
that is a key problem that we have is finding that connection. 
And where we are, we can't find enough veterans. We looked for 
them and when they get out, they can get hired in no time at 
all, because they do bring those great skills.
    So would you have any suggestions, you mentioned a couple, 
which I thought were very important in your testimony about how 
we line up our people, what can we do to the TAP program to 
make it better? Like you pointed out a couple things, instead 
of just learning how to fill out a resume, and how can we line 
up those great people with employers out there that want to 
hire them.
    Mr. Douthit. Yes, I think a couple things. First, we all 
recognize it is important that the mission of the military is 
to deter aggression and fight and win our Nation's wars, and 
that is what we are paying these young--
    Mr. Roe. I thought they told me was to blow up things and 
kill people, that is what--
    Mr. Douthit. A win-win, and we understand that is what the 
young servicemembers and older servicemembers are paid for. 
That critical time in TAP, towards the very end of their 
career, is essential that when you bring the businesses 
together--and, again, hopefully the best of the best 
represented here today who recognize that talent, but that 
understanding what that transition process is for particularly 
the younger military members.
    So that if you can bring business on base into the TAP 
program, so that again the HR and the talent acquisition 
members from business understands exactly how that process 
works, I think you would find a real fight for talent. Right? 
That they would come in and they understand in one-on-one 
dialogue with the TAP professionals around who exactly is 
coming through the process, not necessarily by name, but by 
capability and training levels.
    To your point, those company commanders who can go out and 
run a store today or lead a sales team. And so that sort of 
osmosis that occurs between business getting on base or access 
to the TAP program, and then conversely allowing TAP, I will 
use Central Texas as an example, to move from a joint base in 
San Antonio or from Fort Hood into businesses in the region, or 
El Paso, even in those areas, to understand exactly how do 
things work at Dell EMC, how do things work at those other 
businesses around the region. And so that sort of permeation 
during the TAP program is important.
    Mr. Roe. I think one of the other things you all are doing 
for the spouse program is that you--I was just counting up 
today in my head, in 2 years I moved seven times. Most of the 
tours were unaccompanied, but during my 2 years in the military 
that is a lot of moving and it is very disruptive on families. 
And the spouse programs that you all are putting in are equally 
important, because I do think that affects relationships and 
finances.
    And so, you know, including those spouses in your program I 
think is as important as including the veteran themselves or 
the Active duty person at that point. It makes a lot of sense, 
because you allow that family economically to be stable and I 
want to commend you for that. I think that is a huge thing you 
are doing.
    I remember in 2009 during the height of the recession, we 
had unemployment in veterans, I mean, it was maybe north of 15 
percent, it was horrible. And now I think the unemployment rate 
for veterans is around 3.4 percent in the country. So it is 
very, very low. And part of that were the companies like you 
all that set out and said we are going to hire veterans. Those 
companies made it a goal for their company to hire these great 
people, and I am sitting here today as the Chairman thanking 
you for doing that and this effort you are continuing to do to 
hire veterans.
    With that, I yield back.
    Mr. Arrington. Thank you, Mr. Chairman. For the record, I 
have not been able to get Mr. Correa or Mr. Takano to say that 
the low unemployment rate has anything to do with tax reform, 
but I am going to work on them through this Committee.
    [Laughter.]
    Mr. Arrington. In case you leave early, I just want you to 
know I am going to work on them.
    With that, I yield 5 minutes to my colleague Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I really like that the Chairman of the Full Committee, Dr. 
Roe, reference the crisis we have in veteran suicide right now 
and the conservative estimate, and we don't know the real 
number, but it is 20 a day, every day are taking their lives. 
And the Chairman mentioned that finances are part of that, but 
also we have heard some very powerful testimony from veterans 
talking about function and purpose. You know, you cannot be 
more essential or useful than being a member of that military 
unit. Everything that you do will determine not just your fate, 
but the fate of those other servicemembers in your unit. And to 
come back and sometimes not have purpose or function in your 
life can be very hard to survive, honestly.
    And so the programs that we are hearing about today I think 
help to satisfy both of these challenges, both the financial 
and the challenge in function, and I am very, very pleased by 
the example that these organizations have set. And, you know, 
you all have a responsibility to your shareholders, and so you 
wouldn't just do this because it is the right thing to do, 
though it is, it has got to be right for you and your bottom 
line, and it sounds like it is as well. And to any degree you 
can help us measure or articulate what those measurements are, 
because your good example and then the example in terms of how 
it has been profitable for your companies is one that we need 
other businesses to see and to follow.
    I really liked the suggestions, Mr. Douthit that you 
provided for how we can improve the Transition Assistance 
Program. Just having the literacy amongst employers about what 
it means to serve when fewer than one percent of America has 
served post-9/11. It was far more common in World War II, in 
the Korea era, even in Vietnam, and now it is really the 
exception. And so I love this idea of bringing the employer 
into the TAP program, so that they can meet those transitioning 
servicemembers or just gain some competence in the skills and 
experience and expertise that they can provide to those 
employers, I liked that idea a lot.
    Also, not lost on me, General Profit, you know, your 
comment that perhaps to some degree what you and other 
employers have done has helped to reduce the unemployment rate 
among veterans. And I love the example Walmart is setting for 
how you treat military spouses. You know, any man or any woman 
who is in conjunction with their husband or wife serving by 
helping that family move and survive and thrive in the midst of 
some challenges that most of us don't experience or know, that 
is really important. And I would love to see the same kind of 
return for those military spouses.
    Ms. O'Brien, you mentioned the unemployment rate is four 
times as high. What are some--to the degree that you from 
personal experience or as a representative of the U.S. Chamber 
of Commerce, what are some specific programs, perhaps in line 
with what Mr. Douthit has suggested, that we can implement for 
military spouses going forward?
    Ms. O'Brien. So it four times, we are unemployed at four 
times the rate of the national average of our civilian 
counterparts.
    One glaring omission that exists on the TAP side is that 
military spouses are not able--they are only able to attend on 
a space-available basis. And so oftentimes military spouses 
don't have access to the programming and knowledge that is 
being shared during the TAP process. I think if there is an 
opportunity to integrate military spouses into the TAP process, 
it would be unbelievably impactful.
    Another great opportunity that we are seeing now at Hiring 
Our Heroes is that states are actually putting delegations 
together to travel to our transition summit. So as we are 
convening, you know, several thousand transitioning 
servicemembers, states, the State of Wisconsin, the State of 
Indiana, they are sending businesses to Fort Bliss, Texas to 
try and find folks that want to return home, and capture them 
and bring them back and let them know that there is 
opportunity. So I think exploring opportunities for states to 
integrate businesses into these larger-scaled summits is a 
wonderful opportunity, and also they are going to have the 
opportunity to interact with military spouses.
    Starbucks is doing a fantastic job, really one of the 
leading employers across the country right now. And on Thursday 
we are going to make a fantastic initiative announcement at the 
spouse summit where Starbucks, in conjunction with Hiring Our 
Heroes, and a fantastic coalition of companies is going to work 
over the next 3 years to hire 100,000 military spouses, and 
that is going to be I think a call to action that our country 
needs from an employer perspective.
    Mr. O'Rourke. And I will just say, and I am sure my 
colleagues have similar experiences, as we have hired both 
veterans, military retirees, and military spouses, we have 
always found that to be extraordinary value for our office. As 
a Representative of Fort Bliss with 32,000 Active duty 
servicemembers, there are a number of military spouses, and the 
single largest challenge for us to do our part in holding up 
our end of the bargain is to make sure that those spouses have 
opportunity in our community. And it can be accreditation, it 
can be certifications across border, it can be all number of 
challenges that they face, but when we the employer find a way 
to make use of their value, we always get the best end of the 
deal.
    And so just from personal experience, I want to be sure 
that I share that and that we facilitate the really good news 
that you just announced with other employers and for all 
military spouses. So thank you for the suggestion and thank you 
each for what you do within your organizations, both for 
retirees, veterans, and spouses as well. I am grateful.
    Mr. Chairman, thanks.
    Mr. Arrington. Thank you, Ranking Member. I am going to 
yield myself 5 minutes.
    Someone mentioned that employers don't always recognize or 
understand the unique skills and experiences that become an 
asset for their organization. In your experience, could you 
highlight, you know, two or three unique skills based on the 
experience and training as an Active duty military person 
transitioning as a veteran? Highlight two or three of those 
that have become now an asset at Starbucks or Walmart.
    Mr. Kress. Yes, sir. We know at Starbucks that if we looked 
at a direct skills translation, particularly with our business 
model, we would not be employing as many veterans outside of 
some narrow areas, say finance or technology. But since we have 
broadened and looked at a competency-based model, we have been 
very successful, and I have one great example.
    We recently hired a retiring Marine Corps special operator 
to manage a group of our stores in Western Montana, he is 
responsible for about ten stores and several hundred employees. 
And if you look at his experience, he probably wouldn't fit 
into the Starbucks model, but his ability to lead people, his 
ability to overcome challenges, his ability to accomplish goals 
is absolutely fantastic and he is doing a great job for us.
    So that is just one example. And I will turn it over to 
General Profit to talk about what Walmart has done.
    Mr. Arrington. Excellent. General Profit?
    General Profit. Mr. Chairman, I guess I would say three 
things. The first thing is the Nation makes a huge investment 
in the knowledge, skills, and abilities of all who serve, and, 
further, an equally huge investment in their growth and 
development as leaders, but I think the greatest things that we 
find in the people who have served and their families are the 
values that they bring to our organization.
    We find that the idea of service and sacrifice and 
excellence and respect is something that aligns very well with 
the culture at Walmart, and the values that we hold dear, in 
addition to integrity, and those are exactly the Army values 
that I lived for 31 years. And I think the Marine Corps and the 
Navy and the Air Force and the Coast Guard are equally imbued 
with those same values. And it is important to note that their 
families and their spouses come with that same values base, and 
that is the most important thing to us.
    Mr. Arrington. Well said. I think we can assume that this 
probably cuts across all companies in terms of the leadership 
skills that are sort of ready-built into these men and women.
    What about the challenges? What are the unique challenges 
that the veterans come with that you as an employer and others 
consider and recognize to sort of smooth out any bumps in the 
transition.
    General Profit. I guess I will start by saying that-- and 
we have talked around it a little bit here--I think one of the 
things that I would say about the TAP program that I think 
could be a huge opportunity is to enhance the opportunity for 
the private sector and non-profit organizations to network with 
these great Americans well before they transition, because most 
of them have no idea about their career aspirations when they 
separate. And so it is really hard to have a personal brand 
discussion with someone who doesn't really know what they want 
to do, and it is very hard to understand where the gaps exist 
between that portfolio of preparation and experiences, if you 
don't even really understand their aspirations.
    And I think if we had an earlier conversation with them, 
Mr. Chairman, I think we would better understand them and I 
think they would better understand us.
    Mr. Arrington. Great. Mr. Sevola?
    Mr. Sevola. Yes. I think we know that we have to work with 
hiring managers to make sure that they understand the skills 
and abilities that veterans bring to the workplace, but we have 
also found that we have to work with the veterans themselves to 
understand the skills and abilities they bring to the 
workplace, because many times they believe because you are an 
infantryman or you are an artilleryman, that those skills 
aren't readily transferrable to Prudential. It is true, we 
don't do a lot of that type of work at Prudential, but 
certainly the leadership skills and the teamwork and things of 
that nature are absolutely, critically applicable. And we have 
to educate the veterans as much, so they have their own 
confidence in their own skills.
    Mr. Arrington. Mr. Douthit, yes.
    Mr. Douthit. If I could add to that. I think the one word 
that best describes veterans, given all that you have heard 
here, is athlete. There isn't a lot of fire and maneuver at 
Prudential, nor is there at Dell EMC. Whether you are a combat 
MOS or in the logistics IT world, the leadership that has 
already been alluded to here and the ability to make decisions 
under extreme, intense pressure in very short periods of time 
with grave consequences, I think veterans probably don't quite 
appreciate how well that is appreciated in the business world 
with the kind of values that General Profit alluded to, with 
the kind of diversity that Mr. Sevola mentions as well.
    So, I think athlete is the word I would leave you with.
    Mr. Arrington. Well, your comments are timely. Mr. O'Rourke 
and I and my colleagues have been working on a comprehensive 
reform of TAP, it is still open and the ink isn't dry, and we 
are going to consider everything that you are saying to make it 
as impactful and as effective as possible. So, thanks for your 
comments.
    My time is way expired, so I am going to ask my friend from 
California, Mr. Takano, to take 5 minutes for questions and 
comments.
    Mr. Takano. Thank you, Mr. Chairman.
    This is a question for everyone, if you would briefly 
answer it. Do you include servicemembers in the National Guard 
and Reserve in your veteran training and employment programs, 
or is it just for veterans?
    General Profit. No, absolutely. If you have retired, if you 
have separated as a veteran, if you continue your service in 
the Guard or the Reserve, or if you are part of a military 
family, we equally value you at Walmart.
    Mr. Takano. So Walmart, so you do include servicemembers in 
the National Guard--
    General Profit. Yes, absolutely.
    Mr. Takano [continued]. --in your program? Great.
    Mr. Sevola. At Prudential, we start from the position of 
this is a talent play. So we look for great talent wherever it 
exists, so we have a very broad definition of veterans when we 
execute our program. So members of the Reserves, the National 
Guards, veteran from Active duty are all included, to include 
military spouses.
    Mr. Takano. Wonderful.
    Mr. Kress. Similar for Starbucks, that we put them in the 
same standing as retired military or veterans. And we also 
facilitate, much like my peers here, their military service by 
giving them special consideration when they are wearing the 
uniform.
    Mr. Douthit. As well for Dell, yes.
    Mr. Takano. Wonderful. With the change of the National 
Guard and Reserves to an operational reserve from a strategic 
reserve, the Guardsmen and Reservists you employ have been 
required to attend more training days and increased 
deployments. Have you noticed an impact from your employees 
being gone more? I am talking about this Reservist and 
Guardsmen population.
    General Profit. I don't think so, Mr. Takano. We just 
recently enhanced our military leave-of-absence policy actually 
to include the opportunity for folks who have not served to 
enlist initially into the military, to remove that final 
barrier for them. So I think we are just very supportive, and 
we haven't noticed, I think, any uptick in the move from a 
strategic reserve to an operational one.
    Mr. Sevola. At Prudential, there has not been significant 
impact to our business operations. We stress communication 
amongst the servicemembers, the Reservists and their management 
to ensure that as soon as they understand there is going to be 
a training requirement, that that could be worked into business 
plans. That has worked well for us, so there has not been 
appreciable impact that has been detrimental.
    Mr. Kress. For Starbucks, similar to our peers, we haven't 
noticed an impact. For the servicemembers who do deploy, we 
hold their job and they go right back into their job. And we 
also have a policy, knowing that we don't want them coming from 
48, 72, or 96 hours of active drill period back to work. So we 
give them a flexible leave policy if they need to take some 
time off to get back to us.
    Mr. Douthit. Yeah, we understand at Dell EMC that that is 
the cost of freedom and the cost of doing business.
    Mr. Takano. Wonderful.
    Mr. Douthit. And anecdotally speaking, a Lieutenant Colonel 
in the United States Army, National Guard will deploy, his job 
will be waiting for him and we expect he will do fabulous when 
he gets back.
    Mr. Takano. Thank you. That is so important to our national 
defense. I have a Reserve base in my district and part of the 
challenge is finding employers who understand the various needs 
of our Guardsmen and Reservists.
    Do you know if these servicemembers are advancing at the 
same rate as their peers? Are these servicemembers retained in 
the company at the same rate as their peers?
    General Profit. The evidence that we have seen so far is 
that our veteran associates are more loyal than the average 
Walmart associate and that they perform at a higher level. And 
we think that is part of the value that you talk about to the 
business beyond merely the civic and social responsibility, 
because once we have a better handle on that, you can monetize 
those kinds of things, and at Walmart all those numbers are 
really big.
    Mr. Takano. Wonderful.
    Mr. Kress. I would say, sir, that for our field leader 
positions where we move veterans and military spouses into 
them, we have had an absolutely fantastic retention and 
promotion rate for our district managers, which typically lead 
up to ten stores. We have at this point, I believe, a 96-
percent retention rate for the veterans that are in those 
positions.
    Mr. Takano. Great.
    Mr. Sevola. At Prudential, I think our retention is 
commensurate with our other employees. I will tell you that 
measurement is an area that we are focusing on, so we can get 
better at it. It is a challenge given some privacy rules and 
things of that nature within our company, but that is an area 
where we are focusing and working very closely with our HR 
organization so that we can better answer that question in the 
future.
    Mr. Takano. Great.
    Mr. Douthit. Yeah, I would echo Mr. Sevola's comments 
around privacy in terms of how we measure it, but I can tell 
you that veterans are doing very well, but I can't speak to the 
numbers specifically.
    Mr. Takano. Well, thank you all for your answers.
    Mr. Chairman, I yield back.
    Mr. Arrington. Thank you, Mr. Takano.
    Now my friend, another distinguished gentleman from 
California, Mr. Correa, for 5 minutes.
    Mr. Correa. My good friend from Texas, thank you very much 
for that wonderful introduction, sir.
    I just wanted to thank all of you for the good work you do. 
And we have had this challenge when I was in the State of 
California dealing with Veterans Affairs, we were always trying 
to figure out how do we give the private sector incentives to 
do exactly what you are doing, which is to hire more of our 
veterans.
    Any thoughts how we can fill this room with good employers 
that are hiring veterans?
    Ms. O'Brien. At Hiring--
    Mr. Correa. What can we do to make your job more effective?
    Ms. O'Brien. At Hiring Our Heroes, what we know works 
successfully is when each of our employer partners shares their 
stories and puts it out there in front of the country. When we 
show models of success from Dell, from Prudential, from 
Starbucks, from Walmart, it leaves a lasting impact, and those 
stories of success for military spouses. We know that through 
educating and informing hiring managers and recruiters that it 
allows us to retain and offer opportunities for military 
spouses to have career mobility. But really the impact of 
storytelling we find over and over again is what changes the 
narrative at companies that aren't at the table yet.
    Mr. Correa. Go ahead.
    Mr. Sevola. I was just going to say that what is important 
is that we talked earlier about the fact that there is a big 
divide between the civilian population and the military 
population, with less than one percent of our population have a 
direct military service, that means there is a gap of 
understanding. And getting the word out and telling the 
stories, as Ms. O'Brien states, is very, very important to help 
bridge that gap. The talent is there, they are very, very 
effective, and once employers have a taste of that skill set, 
there is no incentive needed.
    It is a talent play that getting them in the door to show 
what they can do is all you really need to do.
    Mr. Kress. And I would also add to that, Mr. Correa, that 
the companies at this table and many others around the country 
are doing a fantastic job of cooperating. The tool kits, the 
best practices, and coming together on a regular basis to 
continue to build and refine our practices are happening every 
day, sir.
    Mr. Correa. Gender, men and women, any thoughts on how to 
approach women veterans versus male veterans?
    General Profit. I guess we are learning more every day, and 
some of what we are learning from the Women's Veterans Network 
at Boston University is very insightful for us. We know that 
there are unique challenges, but frankly we are finding--we 
just showcased a Navy helicopter pilot who works in our 
technology function at Walmart. There are countless stories, as 
Liz and others have talked about, of women veterans coming to 
our organizations and being very successful.
    I think we have more to learn about our women veteran 
associates, as it has more to do with their health and 
wellbeing than it does with their education and training, or 
their interest in starting their own business or being a 
Walmart associate.
    Mr. Correa. Thank you very much.
    Mr. Chair, I would like to work with you and these 
wonderful folks here on trying to figure out how to approach 
these men and women in uniform before they separate and, you 
know, double, you know, quadruple the amount of businesses that 
are actually reaching out to our veterans before the day of 
separation.
    And, Ms. O'Brien, to all of you here, I like your thoughts 
about the storytelling, the story. I would invite you to come 
to Southern California, so we could do some storytelling to 
some of the locals, local chambers and other folks, to really 
get, you know, this kind of a process going. As you said, it is 
really about one-on-one, telling folks the success.
    And again, like the Chairman said, I am very interested in 
helping you help us come up with good public policy to make 
sure that people understand what value our veterans are to the 
private sector.
    With that, Mr. Chair, I yield the remainder of my time.
    Mr. Arrington. Thank you, Mr. Correa.
    If you have any other thoughts, I think you and I are the 
only ones here now. So we will, in case anyone is watching at 
home, shall we name all of our colleagues? No, I am kidding.
    I have got one more follow-up question and then we will 
close. We talk a lot, Mr. Correa and I, Mr. O'Rourke, as we 
work through the various programs within the purview of this 
Subcommittee, and it seems invariably that when we have folks 
from the VA we will ask the question--well, first we will say 
we think it is a great program, we think the mission and the 
objectives are all good, and if those were achieved, we would 
be a better country, our veterans would be better served, 
taxpayers, et cetera, et cetera, et cetera. And then we ask, 
how is it going? And I find it frustrating that we don't get 
very good, definitive, clear data on what is working and what 
is not.
    And all we want to do is find out, if it is working, let's 
double down; if it is not, let's get rid of it or fix it. How 
do you all--I mean, you are in the private sector, there may be 
a greater sense of urgency and accountability, I suspect, we 
would like to take some of that and transfer it to the VA, how 
do you measure, how do you report to your superiors that what 
you are doing is actually working? How do you measure, how do 
you track, what are your metrics?
    Just give me a couple of examples and then we will close 
out.
    General Profit. Obviously we report quarterly on a very 
public commitment. Part of it is just the fact that we have an 
obligation to deliver on our hiring commitment. But 
increasingly we are looking at data capture and reporting and 
analysis on much more quality metrics that are associated with, 
in our case, how loyal they are to Walmart. And it is beyond 
traditional retention: It is, whether they stay at Walmart or 
not, they remain or become productive members of our 
communities and, hopefully, they remain customers.
    So, it is more loyalty than retention, and we are trying to 
get much, much better at the differences in their performance, 
whether it be in our academies or our Pathways Program, or 
whether it is in their traditional performance in their 
operational roles.
    Mr. Arrington. Can you ever imagine a scenario where your 
superiors would ask you for the outcomes of your programs for 
veterans where you said that you just don't know, you don't 
have the data?
    General Profit. I would try not to have that experience' 
and I would rather not imagine it.
    Mr. Arrington. Yeah, we have that experience like Groundhog 
Day sometimes.
    General Profit. I will tell you, Mr. Chairman, I am very 
encouraged with the participation of the Department of Defense 
and the Department of Veterans Affairs at convenings like the 
Bush Institute Military Service Initiative Stand-To Series, 
which is coming up on its second session this summer, because I 
think the exchange between the public sector, the private 
sector, and the non-profit organizations has been very healthy, 
and I think we are learning from each other.
    Mr. Arrington. Good. Any other final thoughts on just--
    Ms. O'Brien. Sir?
    Mr. Arrington. Yes.
    Ms. O'Brien. I would like to say the Executive Order that 
was recently dropped by the President in reference to military 
spouse employment across the Government, that one of the most 
important parts that was included in that is that the 
Government will now have to track how many military spouses 
were interviewed, how the job was advertised to military 
spouses, how many spouses were hired, and how many were 
retained.
    I think that sends a very clear signal to the rest of the 
country that this is important, it is relevant, and data 
capture really drives what we are doing.
    Mr. Arrington. That is great, great point.
    Mr. Kress. Yes, sir, I would add that our best measure of 
success is how quickly we are exceeding our hiring goals for 
veterans and military spouses, and continuing to up that bar. 
But on the qualitative note that my peers talked about, that is 
the next focus. And we are currently working with that 
Institute for Veterans and Military Families at Syracuse to do 
a deep dive into military spouse employment and understand the 
numbers behind that, so we can give more quantitative answers.
    Mr. Sevola. We certainly count the number of hires that we 
have as an objective measure, but with our desire to want to be 
a national leader in terms of programmatic solutions, we report 
routinely to our Chairman about the work that we are doing to 
help change the game with some of the macro problems, 
specifically in the area of military spouses and job 
portability and things of that nature.
    So we measure ourselves in how we are influencing the 
workplace on these larger problems and putting programs in 
place that others can emulate.
    Mr. Arrington. Let me now yield as much time as the 
gentleman may consume to Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman.
    I wanted to point out that when I deal with my veterans in 
my district, I have a lot of town halls with them, a lot of 
meetings, and I ask them, what is it that I can do to make your 
life better? How is it that I can honor you for your years of 
service to our country? And that is really the way I get ideas 
as to legislation and issues, and what have you.
    I would like to pose the same kind of question to all of 
you, which is what is it that we need to do to make you more 
effective when it comes to hiring veterans? What is it that we 
can do to incentivize you, to help you hire our veterans? You 
are the ones that are doing the hiring, so I would welcome the 
opportunity to hear from you and to work with you on any 
suggestions you may have and to implement them.
    Whether you want to respond to that now or you want to talk 
to me later on or the chair, but, you know, let's talk, let's 
work together.
    General Profit. First of all, sir, I will tell you that you 
don't probably have to incentivize anybody at this table--
    Mr. Correa. Right.
    General Profit [continued].--because this is an enlightened 
self-interest for us. These people are great members of our 
teams, and we want them to join us and stay with us, and I 
think that the public policy that is already in place has done 
a lot to make that good for everyone.
    I will just say one thing that I think is terribly 
importance once again. I do think that the TAP program is still 
a little bit too Government-go-alone, and I think the more that 
you can include the places where these people are going to go 
to work when they separate, i.e. mostly the private sector and 
non-profit organizations as a part of the Transition Assistance 
Program, I think you will give those young men and women a leap 
ahead.
    Mr. Correa. Those are the kind of suggestions I want to 
hear as we move forward, sir. Thank you.
    Ms. O'Brien. Sir?
    Mr. Correa. Yes, Ms. O'Brien.
    Ms. O'Brien. I think we need--everybody at this table as 
referenced is highly committed, how do we get the next level 
employers to the table to emulate and model what is already in 
place?
    And then a big piece that we see over and over again is 
that companies identify as veteran-friendly. Well, nobody here 
has ever met a company that is not veteran-friendly.
    Mr. Correa. That is right, that is right.
    Ms. O'Brien. Right? But how do we get them to move to 
military family-ready, so that they are truly ready to welcome 
the family to the table and provide employment opportunities 
that have traditionally been reserved for veterans moving 
forward.
    So I would love to see a shift from veteran-friendly to 
military family-ready.
    Mr. Correa. Thank you very much.
    Mr. Douthit. I think there is opportunity. We recognize 
that, I think all these companies do, in terms of particularly 
when it comes to spouse's remote work, that just because you 
move doesn't mean you have to lose your job with the company 
for which you are working. So that if you are able to work 
remotely and you make businesses aware.
    Again to my earlier answer, we recognize having Reservists 
and spouses as the cost of freedom and the price of doing 
business, and we think that is good business for America. And 
so offering those opportunities to say, look, just because you 
are moving every two years or every three and a half years 
doesn't mean that you are going to lose the services of that 
employee or are there things they can do remotely.
    Mr. Kress. And, sir, I would like to add onto that and 
focus on military spouses, because one of the challenges that 
our spouses face is that they are very highly educated and they 
have occupations that require licensure in individual states, 
and when they receive those PCS orders, they have challenges 
moving their profession from state to state, and that is what 
keeps many of them out of the workforce or delays their success 
and promotion in their given careers. And there are a number of 
organizations, HOH, MOAA, and several others are looking at 
this problem, but it is a tough one. I would suggest that that 
is one thing that could be examined.
    Mr. Correa. That is actually, Mr. Chair, that is a heck of 
a suggestion that we can have some kind of a temporary license 
in a vocational area or something of the sort that would permit 
you to practice what you are practicing in maybe your home 
state in a different state, as long as you are, you know, for 
military purposes stationed in that new location.
    Mr. Kress. Yes, sir, and bringing that back--
    Mr. Correa. There are a hundred ways to skin that cat.
    Mr. Kress. There are. And bringing it back to the earlier 
conversation on mental health, that is one of the biggest needs 
and there are so many military spouses who have that expertise, 
and our entire population and veterans could benefit from their 
experience and their expertise, but they are having challenges 
transferring that from state to state.
    Mr. Correa. Thank you, thank you very much.
    Mr. Arrington. Thank you, Mr. Correa. And this has been 
very informative and insightful and encouraging, and you and 
your companies are to be commended for being leaders in support 
of our veterans and then just taking advantage of an amazing 
community of Americans. So, congrats and thanks.
    I want to encourage you to sort of memorialize in a more 
specific way, like Mr. Douthit did, and you are just rattling 
through a list of recommendations. As I said, we are moving 
close to a markup, but the ink isn't dry, and I would ask that 
you look at H.R. 5649, that is our Subcommittee's effort to 
improve the TAP program, but I suspect, I know I have made a 
few notes, but if you would look at that and then you would 
give us very specific ways we could consider improving the 
service to our veterans and helping better prepare them for you 
all and your companies, and the marketplace in general, that 
would be tremendous.
    So, again, good feedback, but if you could do that for us, 
that would be great. And if you need any help, I know the staff 
would be happy to guide you there, H.R. 5649.
    One last moment of personal privilege, because I have a 
colleague who has worked on this Committee for 6 years, I 
believe, Ms. Kelsey Baron, it is not like she is--she is not 
dying, but she is going to the Senate, so it is pretty, you 
know--anyway, that is a House joke, but in all seriousness, 
Kelsey has supported me as Chairman. This has been a tremendous 
honor for me and I am a new member, so there was a lot of hand-
holding and a lot of coaching, and she was very patient with 
me. And she is the consummate professional, she loves our 
veterans and this country, her parents both served, and she is 
going to be sorely missed, I will tell you.
    I mean, I like you, John, but, you know, you are much 
better with Kelsey.
    [Laughter.]
    Mr. Arrington. And so we are going to talk about that 
later. Kelsey, we love you, we appreciate you, and we are 
grateful for your service to this Committee and to our country.
    With that, let's close this baby with my final words of I 
ask unanimous consent that all Members have 5 legislative days 
in which to revise and extend their remarks, and include any 
extraneous material on today's hearing.
    Without objection, so ordered.
    We are adjourned.

    [Whereupon, at 3:22 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

                Prepared Statement of Elizabeth O'Brien
ON: ``Veteran and Military Spouse Employment: A National Security 
    Conversation''

    The Foundation's mission is to strengthen America's long-term 
competitiveness by addressing developments that affect our nation, our 
economy, and the global business environment. USCCF presents a broad 
range of programs that promote a greater understanding of economic and 
public affairs issues.
    The U.S. Chamber of Commerce Foundation (USCCF) is a 501(c)(3) 
nonprofit affiliate of the U.S. Chamber of Commerce dedicated to 
strengthening America's long-term competitiveness by addressing 
developments that affect our nation, our economy, and the global 
business environment. USCCF presents a broad range of programs that 
promote a greater understanding of economic and public affairs issues.
    The Foundation conducts research and produces events on issues 
facing business now and in the future. Through its initiatives, the 
Foundation builds skills, drives innovation, and encourages growth.

     ``Veteran and Military Spouse Employment: A National Security 
                             Conversation''
    Good afternoon, Chairman Arrington, Ranking Member O'Rourke, and 
distinguished members of the Subcommittee. My name is Elizabeth O'Brien 
and I am the senior director of military spouse programs for the U.S. 
Chamber of Commerce Foundation's Hiring Our Heroes.
    Founded in 2011, Hiring Our Heroes is a nationwide initiative of 
the U.S. Chamber of Commerce Foundation, which assists military 
veterans, transitioning servicemembers, and military spouses in finding 
meaningful employment opportunities in a 21st century workforce. The 
program accomplishes this goal in myriad ways, including hiring fairs, 
on-installation transition summits, career development and networking 
events, focused research, best practice development and communication, 
campaigns in partnership with sponsor companies and nonprofit groups, 
and a robust suite of online digital resources.
    Since 2011, there has been an incredible transformation in the 
military hiring community as private sector companies have admirably 
stepped up their hiring efforts for veterans and military spouses. When 
Hiring Our Heroes first launched, the employment outlook for veterans 
and military families was bleak. In many ways, the nation was in a 
crisis situation with regards to the employment struggles faced by so 
many individuals who had sacrificed so much for our country. However, 
with the business community meeting the challenge of finding career 
opportunities for this population, the unemployment rate for veterans 
has continued to drop precipitously.
    In fact, the overall veteran unemployment rate continued its 
downward trend in 2017, decreasing to just 3.7 percent. \1\ However, 
while the overall veteran employment news is good, we also know there 
are segments of the military community that continue to struggle. In 
2017, for example, post-9/11 veterans under the age of 25 faced an 
unemployment rate of 7.9 percent. And our most recent veteran 
employment study, Veterans in the Workplace, showed a significant 
gender disparity in employment outcomes for veterans as well: female 
veterans were less likely to find their first post-military job within 
three months of leaving service and were more likely than male veterans 
to report being financially worse off after leaving military service.
---------------------------------------------------------------------------
    \1\ ``Employment Situation of Veterans Summary.'' U.S. Bureau of 
Labor Statistics, 22 Mar. 2018, www.bls.gov/news.release/vet.nr0.htm.
---------------------------------------------------------------------------
    The employment landscape for military and veteran spouses is 
another important piece of the economic puzzle for our veteran 
families. Our 2017 study, Military Spouses in the Workplace, revealed a 
16 percent unemployment rate for military spouses. Among employed 
military spouses, underemployment is widespread, with roughly 70 
percent reporting that their education and experience is underutilized 
in their current position. And although military spouses are more 
highly educated than most working Americans, military spouses with 
degrees face the greatest challenges in nearly every measurable 
military spouse employment category, including the highest rates of 
unemployment and the most difficulty finding meaningful work.
    In the 21st century economy, dual income households have become the 
norm--and in many cases, a necessity--for American families, with 60 
percent of married civilian couples with children now bringing home two 
incomes. \2\ Military and veteran families are no exception, so as we 
consider economic opportunity and long-term success for our veteran 
families, it is imperative that we address the parallel importance of 
veteran and military spouse employment. A dual income family structure 
provides financial stability for our military families during their 
service and through their transition to veteran status and beyond.
---------------------------------------------------------------------------
    \2\ Kent, Lauren. ``The Rise in Dual Income Households.'' Pew 
Research Center, 18 June 2015, www.pewresearch.org/ft--dual-income-
households-1960-2012-2/.
---------------------------------------------------------------------------
    We know that hiring veterans and military spouses is not just the 
right thing to do for the country; it also makes good business sense. 
Veterans bring incredible value in both tangible and intangible skills 
to companies who hire them, from extensive training backgrounds in 
their military occupational specialties to the less concrete 
characteristics such as loyalty, discipline, and a work ethic that is 
unrivaled elsewhere in the economy - all skills crucial to a productive 
work environment. Similarly, military spouses bring to their career a 
diverse body of educational, professional, and volunteer experience as 
well as traits honed through their military community experience, such 
as resilience, perseverance, and grit.
    We also recognize that these employment challenges for veterans and 
military spouses are not solely an economic issue for our country, but 
a national security concern. The success of our present-day veterans 
serves as a beacon for young Americans, enabling the recruitment of 
high-quality candidates into the next generation of the all-volunteer 
force. In the same way, the availability of meaningful career paths for 
military spouses impacts the stability and well-being of military 
families and thus also impacts the military's ability to both recruit 
and retain top military talent.

Background on Hiring Our Heroes

    When Hiring Our Heroes was first created, we had a very simple 
mission - to carry out traditional hiring events and connect with state 
and local chambers to find opportunities for military job seekers 
across the country.
    As the employment landscape for veterans and military spouses has 
changed, we have evolved our operations to maintain our relevance and 
effectiveness in what we do. Through our experience and ongoing 
research, we have become more strategic in our approach and programs, 
and more focused on not only connecting the military community with job 
opportunities, but ensuring that they are finding the right jobs.
    In 2014, Hiring Our Heroes pioneered a series of hiring events 
aimed particularly at connecting veteran, Guard, and Reserve candidates 
with employment opportunities in major metropolitan areas. Hosted at 
professional sports venues, these hiring expos have been conducted in 
dozens of cities around the country in conjunction with Major League 
baseball, NBA basketball, NFL football, and NHL hockey teams. The high-
profile nature of these events has attracted a particularly high volume 
of veteran job seekers and veteran-seeking employers while 
simultaneously providing an opportunity for communities to come 
together and show their support and appreciation for the veterans in 
their hometown. Community demand for these events is strong, and in 
2018 we anticipate holding around 20 of these hiring expos and 
expanding into new cities and additional sports.
    In recognition of the role that early preparation plays in post-
military career success, beginning in 2014 Hiring Our Heroes also 
worked with our public, private, and nonprofit partners to launch a 
series of on-installation transition summits aimed at reaching and 
empowering servicemembers long before their last day on Active duty. 
Created as a complement to existing transition education provided by 
the Department of Defense, these summits provide an intensive 
opportunity for servicemembers and their spouses to learn what economic 
opportunity looks like for them in today's workforce through industry-
specific workshops presented by leading employers, interactive panel 
discussions with employment and human resources experts, breakout 
workshops, networking opportunities, and finally, a large-scale hiring 
fair featuring both regional and national employers.
    In the seven years since our program's launch, we have held more 
than 1,100 hiring events in the United States and on U.S. military 
installations around the world, and from those hiring events alone we 
have confirmed more than 31,000 veteran and military spouse hires into 
the civilian workforce. Beyond those hires, our program has facilitated 
thousands of additional meaningful connections between job seekers and 
employers through our networking opportunities, workshops, and training 
programs.
    Beyond hiring events, we have introduced a number of initiatives 
aimed at improving employment opportunities for veterans. In early 
2015, we launched the inaugural cohort of the Hiring Our Heroes 
Corporate Fellowship Program at Joint Base Lewis-McChord, outside of 
Tacoma. The program, which aims to connect experienced leaders from the 
military with management-level corporate positions, was developed under 
the guidelines of the Department of Defense's SkillBridge job training 
initiative to provide civilian management training in a classroom 
setting followed by hands-on experience in the civilian workforce. The 
program's goal: easing the transition to civilian employment for 
servicemembers who had both the technical and interpersonal skills 
employers seek but whose past job titles did not explicitly correlate 
with their civilian equivalent while simultaneously providing a high-
quality talent pipeline for employers seeking experienced management 
candidates.
    Hiring Our Heroes also developed and continues to improve our 
robust array of digital tools and online resources for both job seekers 
and employers. With support from our generous sponsors, including 
Toyota and USAA, we provide tools such as the Resume Engine for 
veterans and Career Spark for military spouses, VET Roadmap, the 
Employer Roadmap, Fast Track, and others, free of charge for all users, 
whether job seekers or employers. These online tools are designed to 
ensure that our target audiences are equipped with best-in-class tools 
and resources and best practices as they enter into this unique and 
often challenging environment.

Moving ``Left of Transition''

    One of the key lessons we have learned over the last seven years is 
that many of the challenges that military veterans face when 
transitioning off Active duty are tied to a lack of preparation. Far 
too many servicemembers have traditionally viewed transition not as a 
continuing process but as a single point in time when they simply pick 
up their DD-214 papers and leave the military. Unsurprisingly, this has 
left too many veterans without a clear pathway to economic success.
    Our 2016 Veterans in the Workplace study showed that 44 percent of 
veterans left their first post-military job within the first year. The 
reasons for departure varied, but the most common reason cited was that 
those veterans accepted that first job in order to make ends meet 
following their transition from the military and not because it was 
their career path of choice.
    In response, we have renewed our focus on transition education for 
servicemembers, introducing a modified, scalable transition summit 
model to provide right-sized, targeted transition education 
opportunities on installations of all sizes and with a wide range of 
transitioning populations. As a result, we have doubled the number of 
transition summits we will host this year over the previous two years, 
and have expanded summit programming to more than a dozen new 
installations, including hosting our first transition summits on Coast 
Guard bases. We have continued to hone our educational and career 
development offerings, providing in-depth workshops on concrete, in-
demand transition topics, such as professional networking in the 
civilian business world and evaluating civilian pay, benefits, and 
total compensation.
    Since the highly successful launch of the Corporate Fellowship 
Program in 2015, the program has grown exponentially. Service members 
report that they value the introduction to the corporate world, hands-
on civilian work experience, and networking opportunities the program 
has provided. Employers benefit from this access to a larger, highly 
skilled veteran talent pool and appreciate the unique perspective and 
insight that the fellows brought to their companies, whether they are a 
small business who hosts a single fellow or an multinational 
corporation like Amazon, who has hosted more than 145 fellows via the 
program. Today, the program operates in 15 locations around the 
country. More than 1,000 fellows have graduated from the program, with 
an 80 percent job offer rate for graduating fellows. Nationwide, more 
than 150 companies have hosted fellows.
    The resounding success of the Corporate Fellowship Program for 
transitioning servicemembers has also led to the development of a 
similarly-structured pilot program for veterans and military spouses. 
In partnership with Military Corps Career Connect and with the support 
of a national Dislocated Worker Grant from the Department of Labor, the 
pilot program offers 6-week paid fellowships with businesses of all 
sizes, from a host of industries, to recently separated, honorably 
discharged veterans as well as current Active duty military spouses.

Military Spouse Employment: A Unique Landscape

    Early on, we realized that while the military spouse population 
faces its own unique set of challenges when searching for employment, 
these challenges have an important impact on both the long-term 
economic stability of our veteran and military families and on our 
military's recruitment and retention efforts. While a servicemember 
will typically only transition off of Active duty once in his or her 
career, military spouses make multiple transitions while serving 
alongside their servicemember, making it all the more challenging to 
maintain meaningful employment.
    Our Military Spouse Program, which has been in place since 2012, 
provides programming for Active duty, veteran, Guard, Reserve, and Gold 
Star spouses and has long been a bastion of impact in the military 
spouse employment space through spouse-specific hiring fairs, 
networking receptions, roundtable discussions, and professional 
development opportunities. We convene regularly with employers from 
around the country to collaborate on and highlight best practices for 
military spouse recruitment and retention, leading to innovative 
strategies for hiring military spouses and veterans, such as Comcast 
NBCUniversal's installation-specific virtual employee training.
    Over the past two years, our military spouse program has launched a 
fresh wave of grassroots programming and initiatives. In 2016, we 
acquired an established military-spouse focused, chapter-based 
professional development and networking nonprofit with a standing 
footprint in more than two dozen military communities around the 
world--a footprint that, with the support of military spouse-friendly 
employers like Prudential Financial, has more than doubled in size to 
50 locations and which now provides programming in twenty states as 
well as eleven overseas installations in nine countries. Later that 
year, we joined the Military Officers Association of America to bring a 
new series of employment symposiums to installations around the 
country, providing a forum for spouses to engage with local and 
national career resources. Additionally, multi-day, personalized career 
development programming for military spouses was added to the Hiring 
Our Heroes lineup in 2017 with the introduction of AMPLIFY career 
intensives.
    As we have worked to further build our robust array of programming 
for military spouses, we recognize that to permanently move the needle 
on military spouse employment and underemployment, a collaborative 
effort is an imperative. To that end, we have simultaneously endeavored 
to elevate the national conversation around what it means to be a dual-
income military family in the 21st century. Last June, we hosted the 
inaugural Military Spouse Employment Summit to engage the public, 
private, and nonprofit communities on the topic, identifying best 
practices in talent management for recruiting and retaining military 
spouses, highlighting standout military spouse professionals and 
entrepreneurs, and promoting avenues to remove barriers to military 
spouse employment. Later this week, we will once again host the 2018 
Military Spouse Employment, where we will focus on empowering change 
through innovation in the military spouse employment space.

Key Partnerships: Working with the Public, Private, and Nonprofit 
    Sectors

    A central tenet of our strategic approach to veteran and military 
spouse employment centers on private sector engagement. From our 
inception, we have been committed to providing the highest quality 
events, tools, and resources to employers seeking to hire veterans and 
military spouses--all at no cost to the employer or job seeker. Through 
our hiring events, digital tools such as the Employer Roadmap, the 
Corporate Fellowship Program, and more, Hiring Our Heroes has continued 
to provide touchpoints and opportunities to engage with military 
community job seekers for businesses of all sizes.
    In February, we launched the first Military Spouse Economic 
Empowerment Zone (MSEEZ), a grassroots effort to combat the economic 
impact that military spouse unemployment and underemployment have on 
the 21st century military family. These MSEEZ will bring a localized 
focus to building connections and collaboration between regional and 
national employers, educational institutions, and community resources, 
resulting in a robust employment network for military spouses across 
the United States. Steered locally by a working group of employers from 
a diverse cross section of locally significant industries (such as the 
defense industry's Booz Allen Hamilton) as well as a wide swath of 
community resource groups (like the USO Pathfinder), MSEEZ are designed 
to be responsive to the locality's unique employment outlook.
    These localized efforts are balanced by large-scale national 
campaigns. In 2012, together with Capital One, we launched the Hiring 
500,000 Heroes campaign to secure half a million commitments by various 
employers to hire veterans and military spouses. Once businesses who 
joined this program committed, we worked with them to translate those 
commitments into hires. And in June of 2015, we surpassed the 500,000-
hire mark for veterans and military spouses who were hired as a result 
of this initiative.
    Building on that highly successful model, on Thursday, Hiring Our 
Heroes, in collaboration with a coalition of private sector partners 
led by Starbucks, will announce the launch of a similar campaign to 
serve as a national call to action for companies of all sizes to make a 
collective commitment to hire military spouses. For businesses, the 
campaign will present scalable, actionable pathways for connecting with 
military spouse talent; at the same time, the campaign will provide 
real solutions for military spouses seeking meaningful 21st century 
career opportunities.
    In addition to working closely with American employers of all 
sizes, cultivating strategic partnerships with organizations in the 
public and nonprofit sectors has been crucial to our success. As an 
initiative of the U.S. Chamber of Commerce Foundation, Hiring Our 
Heroes is in a unique position to leverage influential connections to 
thousands of state and local chambers, providing us with tremendously 
effective grassroots teams across the country poised to engage with 
military job seekers in their communities. The enormous impact that we 
have seen at every level has been extremely beneficial to our mission.
    Our program has also been able to develop key partnerships with the 
Department of Defense and its many services, the Department of Labor, 
and the Department of Veterans Affairs, as well as the Small Business 
Administration. Working with these federal agencies, we have leveraged 
our events and programs to raise awareness of their employment and 
transition resources for the military community and foster 
collaboration between the public and private sectors.
    The relationships that we maintain with other nonprofit 
organizations within the military hiring community have been integral 
to our success as well. Our work with groups such as the USO, Paralyzed 
Veterans of America, the George W. Bush Institute's Military Service 
Initiative, and many others have furthered our reach and strengthened 
our ability to provide networking and training opportunities for job 
seekers, and make valuable connections for them with employers who are 
hiring.
    Our combined effort to focus on developing resources to educate job 
seekers and employers will continue as our program evolves in the 
months and years ahead.

Conclusion

    Over the last seven years, Hiring Our Heroes has been proud to 
serve our veterans, transitioning servicemembers, and military spouses 
in local communities throughout the United States and to do so with a 
wide array of private and public sector partners. And with more than 
200,000 servicemembers making the transition off of Active duty 
annually, there is always more work that needs to be done.
    Hiring Our Heroes remains wholly committed to the mission of 
connecting veterans and military spouses with meaningful career 
opportunities, and is honored to serve on the front line of this 
movement. We will continue to unite our partners in our common mission 
as we work together to continue to achieve fundamental change in the 
veteran and military spouse employment landscape.
    Chairman Arrington, Ranking Member O'Rourke, and members of the 
Subcommittee, I thank you again for the opportunity to testify and look 
forward to answering your questions.

                                 ---------
                         BG (Ret) Gary M Profit
    Chairman Arrington, Ranking Member O'Rourke and Members of the 
House Veterans Affairs Subcommittee on Economic Opportunity,

    On behalf of Walmart Inc., I want to thank you for the opportunity 
to rejoin you today to talk about hiring and retaining veterans for the 
modern-day workforce. I had the privilege of testifying before the 
House Veterans Affairs Committee in 2014, and, as I stated then, I am 
grateful for your leadership and partnership in honoring our nation's 
veterans' service and sacrifice and for all you do to aid in their 
transition to civilian life.
    Walmart has a rich history with veterans, those who serve on Active 
duty and in the Reserve and National Guard, and veteran and military 
families. Arguably, it began with Captain, U.S. Army, Sam Walton who 
founded Walmart over 50 years ago. His legacy has been enriched by 
countless veteran associates over the years and has been further 
enhanced by our Veterans Welcome Home Commitment established in 2013 
and expanded in 2015 when we pledged to hire 250,000 veterans by 2020.
    Since 2013, Walmart has added more than 200,000 veterans to our 
U.S. workforce and promoted more than 28,000 to roles with higher pay 
and greater responsibility. Their jobs range from part-time hourly to 
salaried management; from Walmart Stores and Sam's Clubs; to 
Distribution Centers and Transportation Offices; and to our Corporate 
Headquarters.
    When we announced our Veterans Welcome Home Commitment in 2013, our 
goal was to put returning post 9/11 U.S. veterans back to work. At the 
time, the unemployment rate for these returning veterans was 
disturbingly high. Now, it is at the lowest it's been in decades, and 
we'd like to think we've played a small part in helping bring the 
number down; rather than taking a victory lap, however, we must remain 
vigilant and know that more work remains.
    Veterans bring years of leadership training, problem solving and a 
host of other strong, transferrable skills to civilian jobs and 
careers. Hiring veterans should be a top priority for any company that 
wants to add true leaders, problem solvers and innovators to their 
workforce.
    I've spent the last decade helping veterans find employment. 
Through my interactions with these men and women, I've listened to 
their frustrations with navigating the multiple agencies offering job 
placement services and the struggles they face when applying their 
military skills to civilian job descriptions. We can and must do better 
by these men and women who gave so much for our country.
    We've learned over the years that we have a much better chance of 
retaining our veteran hires if they have an early understanding of the 
company's mission; if they are able to make a positive impact to their 
team and/or the business quickly; and if they feel supported. 
Furthermore, we've found that a clear vision of a new veteran 
associate's future or career path within the organization is one of the 
more crucial pieces to veteran recruitment and retention.

To realize those ends:

    Our evolving, but generally enduring, strategic and programmatic 
approach includes an integrated, complementary, technology-powered and 
people-infused process to achieve scale without sacrificing a human 
touch: determining career aspirations, translating a portfolio of 
experience, communicating it to talent acquisition professionals, and 
interviewing can be quite daunting for those transitioning from the 
military; therefore, Walmart offers an opportunity for veteran 
candidates to consult with experts.
    Perhaps one of our most successful practices is our onboarding 
process where we place new hires with seasoned associates who are 
veterans, military spouses, current serving members of the Guard or 
Reserve or those who have an affinity for those who have served.
    At Walmart, we believe that retail can be a powerful engine for 
economic mobility, and we are committed to helping make it a place of 
inclusive opportunity where our jobs and purchase orders can help 
people build a better life for themselves and their families. We 
recognize that technology is changing how we work, live and shop, and 
the effects of automation are on everyone's mind. In a world in which 
new skills are required to meet the rapidly changing demands of 
customers, we are investing in training for our associates to help meet 
the increasing expectations of our customers, including the use of 
technology. For our frontline workers, we're providing training and 
talent development aimed at building foundational and advanced skills 
through our Pathways program and Academies.
    The Pathways training program helps associates gain vital retail 
job skills including merchandising, teamwork and communications. Our 
Academies offer hands-on, immersive learning, using cutting-edge 
technology in handheld devices and virtual reality and combines both 
classroom study and training on the sales floor. To date, more than 
400,000 associates have been through Pathways, and more than 250,000 
have completed the Academy training program. While we don't currently 
track the number of veterans that are going through Pathways and 
Academies, we do know that many are utilizing these training programs 
and some are even instructors at our Academies.
    Earlier this month, Walmart unveiled a new associate education 
benefit designed to remove barriers to college enrollment and 
graduation. In partnership with Guild Education, Walmart associates 
will be able to access affordable, high-quality associate's and 
bachelor's degrees in Business or Supply Chain Management. Under the 
program, which will be made available to all Walmart U.S. associates, 
Walmart will subsidize the cost of higher education, beyond financial 
aid and an associate contribution equivalent to $1 a day. In addition, 
associates can earn college credit for paid training at Walmart 
Academies. Hundreds of thousands of associates have already undergone 
skills training equivalent to more than $210 million in college 
credits. This will save associates both time and money in completing 
their degree. We anticipate that our veteran associates will take us up 
on this offer, and we also believe that it may help in recruiting 
transitioning servicemembers.
    An additional business initiative that I feel holds tremendous 
value for our veterans and military families is our Military Family 
Promise. The Military Family Promise guarantees a job at a nearby store 
or club for all military personnel and military spouses employed by the 
company who move to a different part of the country because they or 
their spouse have been transferred by the U.S. military. It allows 
military spouses, in particular, to remain in the same personnel and 
pay systems, and gives them the opportunity to turn jobs into careers.
    While I've shared with you what Walmart is doing to recruit, hire 
and retain veteran talent, you should also know that outside of what we 
do for our employees, we are actively seeking products from veteran-
owned businesses to add to our stores and on-line assortment. Two weeks 
ago, we held our fifth annual Open Call where we invited suppliers to 
our home office to pitch products made in the U.S. Out of the more than 
450 companies that attended, 22 self-identified as veteran-owned. 
Gaining a purchase order from Walmart can be a powerful thing for a 
veteran entrepreneur, and we see more opportunity here to cultivate and 
help grow these businesses. As a founding member of the Coalition of 
Veteran Owned Business, Walmart is committed to help grow and support 
veteran owned businesses in communities throughout the U.S. The 
Coalition provides economic opportunity to veterans, their families and 
the communities in which they live by offering leadership and a 
national platform to support military spouse and veteran-owned 
businesses, entrepreneurs and suppliers.
    Whenever possible, Walmart shares what we have learned about 
veteran employment with others - in this regard, we aim to help others 
to do the same - accelerating/maximizing impact.
    In the spirit of accelerating and maximizing impact, in 2011, 
Walmart and the Walmart Foundation committed $20 million through 2015 
to support veterans and their families with assistance for programs 
that provide job training, transition help and education. With the 
early completion of the commitment in May of 2014, Walmart and the 
Walmart Foundation renewed the commitment, announcing an additional $20 
million through 2019 to support job training, education and innovative 
public/private community-based initiatives that address challenges many 
veterans face when returning to civilian life.
    While Walmart and the Walmart Foundation are supporting many 
organizations doing great work with veteran transition through these 
commitments, three that I want to callout are Hire Heroes USA, the 
Institute for Veterans and Military Families (IVMF) at Syracuse 
University, and The Henry M. Jackson Foundation .
    Hire Heroes USA's singular focus on veteran employment is not only 
working to place veterans with the right job, but also gaining 
incredible insights into what the critical needs are for those 
separating from service.
    IVMF's AmericaServes program streamlines and digitally connects 
veterans to services in their communities. Through our commitment, we 
are supporting AmericaServes programs in New York, the Carolinas and 
Texas.
    As we seek to learn more about what's working in the field, we look 
to grantees like the Henry M. Jackson Foundation for the Advancement of 
Military Medicine's Center for Public-Private Partnerships. Our 
investment in The Veterans Metrics Initiative (TVMI): Linking Program 
Components to Post-Military Well-Being, a five year study, launched in 
2015, is following 9,500 veterans 0-90 days post separation from 
military service to within three years thereafter, documenting and 
analyzing the components of the transition and reintegration programs 
veterans report that they use.
    Since 2011, we've been very deliberate about our funding efforts to 
support transitioning veterans and military families, and, in the last 
few years, we've been intentional about applying a gender lens to these 
efforts. As the number of women joining our U.S. Armed Forces has grown 
rapidly over the years, so have the number of female veterans 
reintegrating to civilian life.
    Two organizations that are focusing on the unmet needs of women 
veterans are the Boston University School of Medicine and Goodwill. 
Boston University School of Medicine launched the Women Veterans 
Network (WoVeN) just last year with the help of a grant from the 
Walmart Foundation. Also in 2017, the Walmart Foundation awarded a 
grant to support Goodwill's Operation: GoodJobs, which in its next 
iteration, will place a special emphasis on resources and job training 
for female veterans.
    As we look to the future, we see great potential to address the 
remaining barriers to successful transition from military service to 
civilian life, but only through collaboration and a shared vision will 
we realize it. When government programs and initiatives, large and 
small corporations, and non-profit organizations come together much is 
possible. One prominent example, of which we are a proud partner, is 
the Stand-To convening, launched last year by the George W. Bush 
Institute's Military Service Initiative and now in its second year.
    Our goal is to synchronize efforts and empower every veteran and 
his or her family to lead a full and meaningful life by achieving 
optimal health and wellbeing, leveraging education and workforce 
readiness, and fostering employment and entrepreneurship opportunities. 
With clearer data, unified vision, and a leading strategy, we can 
better serve our veterans and their families; maximize national effort 
and resourcing; enhance our national security by contributing to the 
preservation of the all-volunteer force; ensure our global 
competitiveness and civic leadership; bring our military-veteran and 
civilian populations closer together; and meet our moral and social 
obligations to our veterans.
    We salute America's heroes. We are honored to have the opportunity 
to employ them, to learn from them, and to support them and their 
families in every way we can.
    Thanks again to the Subcommittee for its leadership and partnership 
and for holding this hearing...I appreciate the invitation to appear 
and look forward to answering your questions.
                                WALMART
APPENDIX

I. Walmart Military Fact Sheet
II. Military Family Promise Impact Story
III. WoVeN Impact Story
                                WALMART
    Supporting Those Who Serve: Walmart's Commitment to Veterans and 
Military Families
    At Walmart, we are grateful for the sacrifice our nation's 
veterans, military men and women and their families have made in 
service to our country. It is our duty and our honor to support our 
military not only when they are in uniform but also when they 
transition to civilian life. We are committed to helping them as they 
face this important period through job opportunities as well as support 
for programs that provide job training, reintegration support and 
education.

Veterans Hiring Commitment

    On Memorial Day 2013, Walmart introduced our Veterans Welcome Home 
Commitment, which guaranteed a job offer to any eligible, honorably 
discharged U.S. veteran who was within 12 months of Active duty. Our 
initial goal was to hire 100,000 veterans by the end of 2018.

    <bullet>  In May 2015, we announced the expansion of our original 
projection with a new goal of hiring 250,000 veterans by the end of 
2020. We also changed the eligibility from within 12 months of Active 
duty to any veteran honorably discharged since we announced the 
commitment in 2013.
    <bullet>  Since Memorial Day 2013, Walmart has hired 200,820 
veterans, and 28,839 have been promoted to roles of greater 
responsibility.
    <bullet>  Veterans can explore career options with the company at 
www.walmartcareerswithamission.com.

Supporting Veterans

    Whether through career fairs, recognition campaigns, 
entrepreneurial support or company policies, Walmart seeks to 
demonstrate the value veterans bring to the workforce and to our 
communities.

    <bullet>  Hiring Our Heroes - Walmart, Sam's Club and other 
employers have recruited tens of thousands of veterans through hundreds 
of the U.S. Chamber of Commerce's Hiring Our Heroes' career fairs.
    <bullet>  Coalition for Veteran Owned Business - As a founding 
member of the Coalition for Veteran Owned Business, Walmart is 
committed to help the organization grow and support veteran owned 
businesses in communities throughout the U.S. The Coalition provides 
economic opportunity to veterans, their families and the communities in 
which they live by offering leadership and a national platform to 
support military spouse and veteran-owned businesses, entrepreneurs and 
suppliers.
    <bullet>  Greenlight A Vet - In its third year, GLAV continues to 
encourage communities to mobilize around a shared purpose of showing 
appreciation to our nation's veterans through volunteering with veteran 
organizations, raising awareness on social media and signaling 
appreciation by changing one light to green in one's home or business.
    <bullet>  Military Family Promise - Walmart guarantees a job at a 
nearby store or club for all military personnel and military spouses 
employed by the company who move to a different part of the country 
because they or their spouse have been transferred by the U.S. 
military.
    <bullet>  Military Leave of Absence (MLOA) - Since 2008, Walmart 
has offered differential pay to associates taking a leave of absence 
for specific military assignments lasting more than three days and 
through the duration of leave. If an associate's military salary is 
less than what they make at their job at Walmart, the company will pay 
them the difference while they're on MLOA. In May, Walmart announced 
enhancements to this policy to include any eligible military 
assignment, including basic training, allowing associates who are 
considering enlisting in the Armed Forces to do so without fear of 
losing wages.

Education, Job Training and Reintegration Assistance

    In 2011, Walmart and the Walmart Foundation recognized that 
opportunity sometimes isn't the only challenge facing transitioning 
military families. The company committed $20 million by 2015 to support 
veterans and their families with assistance for programs that provide 
job training, transition help and education. With the early completion 
of the commitment in May of 2014, Walmart and the Walmart Foundation 
renewed the commitment, announcing an additional $20 million through 
2019 to support job training, education and innovative public/private 
community-based initiatives that address challenges many veterans face 
when returning to civilian life.

The following are a few of the most recent programs supported with the 
    $40 million commitment from Walmart and the Walmart Foundation:

    Boston University School of Medicine -Launched in 2017 with the 
help of a $469k grant from the Walmart Foundation, the Women Veterans 
Network (WoVeN) at Boston University is a program where BU clinicians 
and researchers are leading a 5-year initiative to establish a 
nationwide network of structured, trained peer-facilitated, 10-week 
support groups for female veterans to enhance wellness, quality of 
life, family relationships and referrals for additional services.

    <bullet>  In May 2018, the Walmart Foundation granted over $250,000 
to WoVeN building upon the 2017 grant to continue strengthening the 
initiative. When complete the program projects that it will have served 
 2,500 female veterans.

    The Henry M. Jackson Foundation for the Advancement of Military 
Medicine, Inc. - Center for Public-Private Partnerships (CP3): In 2015, 
the Walmart Foundation awarded a $500k grant to support The Veterans 
Metrics Initiative (TVMI): Linking Program Components to Post-Military 
Well-Being study.

    <bullet>  This five-year study will assess the well-being of 9,500 
veterans 0-90 days post separation from military service to within 
three years thereafter, and document and analyze the components of the 
transition and reintegration programs the veterans report that they 
use.

    Institute for Veterans and Military Families (IVMF) at Syracuse 
University - IVMF launched the AmericaServes initiative in 2013 to 
streamline and digitally connect veteran services available in 
communities and create the nation's first coordinated system of public, 
private and non-profit organizations.

    <bullet>  Building off of a $1 million Walmart Foundation grant 
awarded in 2015, the Foundation granted an additional $5 million in 
2016 to support the ongoing implementation of existing AmericaServes 
communities and seed planning investments in New York, the Carolinas 
and Texas.

    Goodwill Industries International - Launched in 2012 with a $1 
million grant from the Walmart Foundation, and a subsequent $5 million 
grant in 2013, Operation: GoodJobs (OGJ) has helped thousands of 
veterans and military spouses with job training and placement services.

    <bullet>  With an additional $5 million grant awarded in 2017, the 
Walmart Foundation is funding the next iteration of OGJ programming 
which places a special emphasis on resources and job training for 
female veterans.

Additional Veteran and Military Family Service Organizations funded 
    through the $40 million commitment:

    <bullet>  Operation Homefront - In response to the 2017 hurricane 
season, the Walmart Foundation granted $500,000 to the organization's 
Critical Financial Assistance program to help meet the urgent needs for 
military families affected by disaster or deployed to help with relief 
and recovery.
    <bullet>  Blue Star Families - With a mission to strengthen 
military families every day, Blue Star Families strives to better 
understand and provide solutions to the challenges facing today's 
military families through career development, caregiving and leading 
research on military family life.
    <bullet>  Hire Heroes USA - With a singular focus on veteran 
employment, Hire Heroes USA offers personalized employment training to 
clients at no cost, delivering a three-phase, high-touch program that 
helps clients market their skills and secure meaningful employment.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    When my wife received her transfer orders, we prepared ourselves 
for the Army to move us from Wichita, Kansas to Joplin, Missouri.

    Once again, we were off to a new-to-us destination. The life of a 
military family is not for those who don't like change. So much of life 
is built around constants, yet in a military life, change is one of 
those constants.
    I admire my wife for her devotion to our family and to our country. 
I get it. I really do. I served from 1992-2006 in the U.S. Marine 
Corps, and my wife has served in the U.S. Army since 2000. Both of us 
spent time overseas with Operation Iraqi Freedom. And while I chose to 
transition to civilian life a few years ago, my wife stayed the course 
and built a career with the Army.
    Most don't think about the toll transfers take on military 
families; when one serves, we all serve. Being at the military's beck 
and call is something we are used to. We know what we signed up for. 
While I'm not complaining about this life of service, trying to quickly 
find a new job when your spouse is transferred can be challenging and 
stressful.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    But there was something different this time - something that made 
our family's latest transfer experience better than it has ever been 
before.
    As an asset protection manager at store 3492 in Wichita, Kansas, I 
wasn't familiar with Walmart's Military Family Promise (MFP) program 
until I spoke to a friend who worked at the home office. The MFP 
program guarantees a job at a nearby store or club for all military 
personnel and military spouses employed at Walmart or Sam's Club who 
move to a different part of the country because they or their spouse 
have been transferred by the U.S. military.
    I had no idea we had policies in place to support me, a military 
spouse.
    I didn't go into the MFP process with any preconceived notions. I 
knew I might not get the exact job I wanted unless something opened up. 
And, while I would've been thankful for any opportunity, I was 
fortunate enough to land the exact same position I had in Wichita at a 
Neighborhood Market in Joplin, Missouri, just a few miles away from 
where my wife is serving.
    I knew Walmart cared about veterans and was familiar with our 
Veterans Welcome Home Commitment. But I had no idea we had policies in 
place to support me, a military spouse. The MFP allows me to focus on 
what's most important during this transition - and that's getting my 
house in order and getting my kids acclimated to their new 
surroundings.
    I'm also taking time to share my story so other military family 
associates can take advantage of MFP and focus on what's important in 
their lives during their own moves. Thanks to programs like these, we 
don't just have jobs at Walmart, we have careers.
A Common Thread Is Woven Between Women Veterans
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Last year, I was dealing with some major life issues: transitioning 
careers as an older adult and stressing about loved ones who were 
incarcerated. My energy was low, and my self-identity was in question. 
As a single, divorced mom of two young adults, I was trying to be 
strong and cope with life all alone.
    I realized I hadn't had a great support system since I'd left the 
Marines over 20 years ago. That was my missing puzzle piece - I needed 
to find fellow women veterans who understood my experiences and the 
special bond that military service provides.
    I'd tried many times over the years to find such a sounding board, 
but continually came up short. I knew there were a lot of people with 
similar experiences out there, but I thought maybe they were like me 
and hesitant to speak up about their service.
    Then suddenly, just when life was hardest and I needed support the 
most, I found Women Veterans Network (WoVeN), a support group made 
specifically for women like me.
    After attending one of their community focus groups, I eagerly 
joined WoVeN, and as Marines say, I hit the ground running. I never 
imagined something so simple could be so life changing, but this 
organization - and more specifically, the women in it - gave me the 
spark I needed to push myself to be better and do more.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    WoVeN provided me a non-judgmental environment to openly express 
myself, communicate with and support other women veterans. And when 
that group came together, it created an atmosphere of energy, respect 
and understanding that I'd never witnessed in my life. I felt 
comfortable. The group was motivating and encouraging. I felt a sense 
of comradeship I hadn't experienced in years. WoVeN accepted me as-is 
and put me back on the path to improving my quality of life
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    Since then, I've been inspired to take personal responsibility for 
my health and wellbeing. From mountain biking and completing a 5K, to 
developing new skills and better managing my stress, having this 
network of women has helped me improve not only my life, but also my 
family's.
    Because this was such a valuable experience, I wanted to do more to 
give back. I've started to reach out to other women veterans and engage 
with them outside of the WoVeN community. Now, I have an extended 
family I can call on anytime. My hope is that WoVeN will continue to 
grow and reach more women veterans all over this country, so they can 
have the same experience and support I have.
    In 2017, the Walmart Foundation awarded a $469,000 grant to the 
Boston University School of Medicine (BU) to support the establishment 
of the WoVeN initiative. Through WoVeN, BU clinicians and researchers 
are leading a five-year initiative to establish a nationwide network of 
structured, trained peer-facilitated, 10-week support groups for women 
veterans to enhance wellness, quality of life, family relationships and 
referrals for additional services. Today, the Walmart Foundation is 
building on the existing grant to BU and is bringing its total 
commitment to WoVeN to nearly $720,000 with the announcement of an 
additional $250,782 grant. The program is projected to reach 
approximately 2,500 women veterans by the end of 2022.

                                 ---------
                    Prepared Statement of Matt Kress

Introduction

    Good afternoon Chairman Arrington, Ranking Member O'Rourke, and 
Members of the Subcommittee. As a post 9/11 veteran, it is an honor to 
share with you how Starbucks Coffee Company is continuing to support 
Active duty military, military spouses and veterans as they transition 
into Starbucks partners, the term we use for our employees. In 
particular, I will be discussing how we are working with a broad group 
of companies, public agencies, non-profits and veteran/military service 
organizations to create an effective transition experience and 
integration into civilian life. I am also pleased to offer some 
thoughts on continued innovations to our policies and programs that we 
believe are critical to improving this experience.
    To give some personal context to my remarks, I spent 22 years in 
the Marine Corps between active and reserve service, as both a 
commissioned officer and an enlisted Marine. After deploying to Iraq in 
2004 with Marine Corps Special Operations, I left Active duty to become 
a firefighter in Southern California. During my time in public safety, 
I took advantage of the Post 9/11 GI Bill to earn my Master's degree in 
Strategic Planning from the University of Washington and an MBA from 
UCLA. Turning to the corporate world as the natural transition from 
this chapter, I was surprised to learn that, despite my advanced 
education and years of leadership and management experience in very 
challenging environments, I had a difficult time translating my value 
and experience for potential employers. If I had a hard time sparking 
interest, you can imagine the challenges other servicemembers face when 
they speak with companies. Through the support and assistance of 
veterans in corporate America that were generous with their time and 
opening their networks, I was fortunate to land in a role where I can 
continue my career serving others in a company that cares tremendously 
about our military members, has the leadership and humility to 
incorporate an effective veteran hiring program into its culture, and 
is pushing others to join the movement.

Background

    In November 2013, Starbucks made a groundbreaking commitment to 
hire at least 10,000 veterans and military spouses in five years. I'm 
proud to say that we achieved that goal early, and in March 2017 set a 
new goal of hiring 25,000 by 2025, which we are quickly working 
towards. Throughout this process we have recognized that serving our 
veterans and military spouses is about much more than simply providing 
jobs. Starbucks recognizes that the unique skills, experiences, and 
knowledge that veterans and military spouses gain through their service 
are tremendously valuable. Our goal, therefore, is not only to hire 
25,000 veterans and military spouses, but also to create a work 
environment and corporate culture that fosters their personal and 
professional growth. A steady paycheck is important when shifting jobs, 
but veterans and their families are not just shifting jobs when they 
leave the service. They are leaving an environment where they had a 
clear sense of purpose and worked closely with others toward goals that 
were much bigger than themselves. I am proud to say that Starbucks 
provides that environment.
    Driven by the passion and dedication that starts with our senior 
leadership and extends to the rest of our partners, Starbucks is 
committed to creating a workplace and culture where our military 
members and their spouses can succeed. In the past five years that we 
have focused on hiring veterans and military spouses, we have focused 
very closely on becoming a veteran employer of choice.

Innovations

    One of our early recognitions was the need to evaluate this 
population though a different lens based on their training and life 
experience. To this end, we shifted from a skills-based hiring model to 
a competency model when evaluating job candidates. While the job 
specific training received in the military may not be a direct match 
for our environment, we know that leadership, teamwork and other 
intangible skills are a great fit for Starbucks. Similarly, we know 
that the enthusiasm and dedication that military spouses bring to our 
stores creates a welcoming environment for our customers. Parallel to 
this, Starbucks has focused on preparing our field leaders to 
effectively lead veterans and military spouses through an understanding 
of the unique differences in culture, leadership expectations, and even 
language. One of the best ways we have found to achieve this are 
through immersions on military bases where our field leaders and 
partners get to see firsthand the natural teamwork that translates so 
well to our stores.

Benefits

    We have also listened to our partners and developed or improved 
several programs and policies that are unique to our military and 
veteran populations. For current reservists, we provide 80 hours of 
flexible leave to facilitate military participation. If Guard or 
Reserve partners are called to Active duty, we pay the difference 
between their Starbucks wages and military wages for up to 78 weeks. 
Finally, our veteran partners can now gift their College Achievement 
Plan, which is a fully funded remote bachelor's degree at Arizona State 
University, to their spouse or child.

Culture

    We recognized the need to build an internal veteran cultural 
competence that not only understands and values veterans but is 
improved by infusing their values into the company's culture. For 
Starbucks, this started with the recognition that much of what has made 
the company incredibly successful parallels military values. A 
commitment to excellence, strong sense of ethical and moral principles, 
camaraderie, and empowerment of our partners are among the values that 
make Starbucks a special place to work and parallels what drives our 
military. The dedication to service that is second nature to our 
military members has unlocked a passion in all of our partners to be 
more engaged and involved in volunteer and community programs. Another 
internal cultural piece is the growth of our military affinity group, 
Armed Forces Network (AFN), which has 16 chapters throughout the 
country. The AFN provides a source of mentorship, camaraderie and 
connection for our veteran partners. It is also a forum and focal point 
for building our veteran cultural competence. In return, our veteran 
partners pay it forward by engaging in community volunteer activities 
and represent the best of Starbucks.
    While these efforts have not been flawless, we continue to learn 
from our mistakes and drive forward to serve those who have so 
selflessly served our nation. In addressing the broader question about 
innovations in this space, we are currently focused on meeting the 
employment challenges faced by military spouses. With an unemployment 
rate that is currently four times the veteran population, we are 
partnering with Hiring Our Heroes, USAA and others to find lasting 
solutions. On our side, we have specifically designed processes that 
assist our military spouses transfer their jobs to new Starbucks 
locations when the inevitable change of duty station orders arrive. We 
also have flexible leave policies for spouses that take into account 
the realities of deployments, moves and homecomings.

Community Partnerships

    Starbucks is increasing the opportunities for local communities to 
use our stores to engage with military members and their families, 
expand partnerships with veteran service organizations to offer 
relevant programming, and using our scale to create connections to 
bridge the military - civilian divide. Utilizing our 44 Military Family 
Stores, which are situated in communities near military installations, 
we are working with a range of our partners such as the USO, Blue Star 
Families, and Team RWB to provide needed transition programming and 
services such as resume counseling, interviewing skills and family 
cohesion counseling. A very successful example of this is Military 
Mondays, which was developed in conjunction with the William and Mary 
Law School, to provide free legal counseling to servicemembers at our 
stores. Military Mondays is now scaling nationally and growing to 
include other critical services such as financial literacy training and 
investment counseling. Our stores are also a hub for organizing 
partner-driven community service projects in conjunction with the 
veteran groups The Mission Continues and Team Rubicon. Partnering with 
veteran services groups such as these provide veterans and spouses with 
opportunities to make connections in their new communities, as well as 
leverage their considerable skills for the greater good.
    Moving forward, our ambition is to change what it means to support 
our troops. While being thanked for their service is appreciated, 
military members and their spouses want to be given the opportunity to 
demonstrate the incredible leadership, experience and talent that they 
bring to the workplace. We will continue driving and refining this 
effort through our policies, storytelling and partnerships. As our 
dedicated hiring program and veteran cultural competency matures, we 
are increasingly sharing our model and lessons learned with others. In 
addition, Starbucks is increasing the opportunities for local 
communities to use our stores to engage with military members and their 
families, as well as expanding partnerships with veterans service 
organizations to offer relevant programming.
    In closing my remarks, I would like to take the opportunity to 
raise opportunities for Congress to enable both our efforts and the 
larger effort to reverse the military-civilian drift.
    First, is recognizing and supporting the unique employment 
challenges of military spouses. With an unemployment rate that is 4 
times that of veterans, they need a coordinated focus that is well 
represented by the Hiring Our Heroes 100,000 Military Spouses Campaign. 
A larger and more critical request is related to the needs that 
Chairman Arrington outlined in the 2108 Mulder Transition Improvement 
Act. Giving the transition process greater structure and adding 
counseling and wraparound services are truly important changes that 
will increase the value and impact of the process.
    Thank you for inviting me to speak with you today. After serving 
our country for 22 years, it is my honor to discuss the Starbucks 
veterans and military spouses program and the difference it is making 
in the lives of our military members and their families. Our CEO, Kevin 
Johnson, and our Starbucks partners look forward to working with the 
House Veterans' Affairs Committee in the months and years to come.

                                 ---------
                                 
              Prepared Statement of Charles J. Sevola Jr.
    Chairman Arrington, Ranking Member O'Rourke, and Members of the 
House Veterans Affairs Subcommittee on Economic Opportunity, my name is 
Chuck Sevola and I head Prudential's Office of Veterans Initiatives. 
Thank you for having me here today and for the opportunity to speak 
with you about Prudential's Veterans Programs and specifically our 
VETalent program.
    Prudential has historically had numerous veteran hiring programs. 
To help address the unemployment crisis with our nation's veterans 
after the economic downturn of 2008, our dedicated office of Veterans 
Initiatives was formed in 2010 at the direction of our Chairman, John 
Strangfeld. The mission statement of our Veterans Initiatives Office is 
to establish sustainable programs and activities that have a positive 
impact on the lives of veterans and their families, helping them to 
achieve professional success, financial prosperity, and peace of mind. 
This statement reflects our desire to distinguish Prudential as a 
preferred employer for veterans, a community leader in supporting 
veteran service organizations and initiatives, and a national leader in 
developing and sharing best practices for corporate veteran programs. 
To create a rounded approach, we established a five-pillar strategy to 
achieve our goals.
    The first pillar and our primary focus is Education and Employment. 
This covers our programs in recruiting, training, and retaining 
veterans and Military Spouses not just for jobs, but for fruitful 
careers at our firm. Additionally, we seek to use Prudential as a test 
bed for programs that once proven and refined, can be exported to other 
likeminded companies. Our flagship program of this pillar is our 
VETalent collaboration with Workforce Opportunity Services (WOS) which 
I will detail later.
    Our second pillar of Employee Engagement focuses on harnessing the 
passion that exists in our workforce to help veterans and their 
families through volunteerism. Service to the community in which we do 
business is a part of our corporate DNA and Prudential employees can be 
found lending their time and expertise to such organizations as the 
United Service Organization (USO) on a regular basis.
    The third pillar, Thought Leadership, covers our work to understand 
the issues that veterans and their families face, and establishing and 
sharing best practice programs to address these issues. An excellent 
example of this work is our sponsorship and collaboration with the 
Institute for Veterans and Military Families' (IVMF) research on 
employing Military Spouses.
    The fourth pillar is Corporate Giving. Here we provide financial 
resources through philanthropy and sponsorships to like-minded 
organizations to extend our reach beyond what we can do on our own. We 
provide more than $4 million dollars annually to many excellent 
organizations working on activities in line with our mission. Some 
examples of our partners include Tragedy Assistance Program for 
Survivors (TAPS), U.S. Chamber of Commerce Hiring our Heroes 
organization, and the United Service Organizations (USO).
    Finally, our fifth pillar, Veterans and Military Business Support 
seeks to find the intersection between the work we do with veterans 
through our Corporate Social Responsibility and the work we do as a 
Financial Services firm. Our primary focus is bringing Prudential's 
expertise in Financial Wellness education to the issues that Veterans 
and their families face as they transition to civilian life. Through a 
partnership with the USO, we offer a completely non-solicitous 
Financial Wellness training program to help transitioning Service 
Members plan for, and work towards, their financial needs in civilian 
life.
    Our multi-faceted approach to our veteran programs is robust and 
mutually supporting among the five pillars. While these activities are 
distinct, there is a common thread in how they support our main focus 
of veteran employment. Elements of our WOS program mentioned previously 
can be found within each of these pillars.
    Founded in 2005, Workforce Opportunity Services (WOS) is a leading 
nonprofit committed to developing untapped talent from underserved and 
veteran communities through partnerships with organizations dedicated 
to diversifying their workforce. The WOS Program has its roots in a 
program developed by Dr. Arthur Langer of Columbia University. It 
started with Dr. Langer's research on solutions to address the effects 
of poverty, social isolation, and stress in underserved populations who 
may lack resources and access to higher education and career 
opportunities. The initial program was a collaboration between Dr. 
Langer and Prudential's Global Chief Information Officer Barbara Koster 
to establish a new talent channel for Prudential's technology 
organization. This program was then adapted in 2010 to serve as the 
basis our Veteran training and hiring activities for post 9/11 
Veterans. This adapted program, branded VETalent at Prudential, was one 
of the first programs of its kind training veterans for new careers in 
Corporate America.
    The WOS model is unique among U.S. organizations because WOS 
combines all aspects of the new employee lifecycle to ensure its 
participants are successful. The hands-on model is a key driver of the 
programs' success as well as the success of those who've completed the 
program. The process is holistic as WOS and the sponsoring partner 
works with participants throughout the recruiting, training, and 
employment process. The program summary is as follows:

    <bullet>  WOS works with a partner organization to identify its 
workforce needs. Once the number of roles and individuals requested are 
agreed upon, WOS conducts a needs assessment to understand the type and 
length of the training required for the program.
    <bullet>  WOS uses the information gathered during the needs 
assessment to create a unique program. Each WOS program is unique due 
to the specificity of the requests of WOS partner organizations. Once 
the program design and development are complete, WOS identifies 
academic partners with the technical expertise required. WOS also 
infuses its own interpersonal skills curriculum into the program. The 
interpersonal skills training is the common thread throughout all WOS 
programs. During this stage, WOS builds a program participant profile 
and creates a unique selection tool for the program.
    <bullet>  WOS casts a wide net to recruit applicants to the 
program, with the intent of having the largest pool of candidates to 
put through the selection process. WOS uses numerous online and in-
person channels to do so.
    <bullet>  The WOS selection process is rigorous and designed to 
identify the best qualified candidates. These top candidates are 
invited to precertification, the final stage of selection where 
candidates take part in a various assessment to gauge interest in the 
course material and fit for the identified roles. Once candidates 
complete the precertification, WOS confers with the sponsoring 
organization to finalize the program participants.
    <bullet>  WOS manages the entire academic training. WOS has 
resources in the classroom and works with the participants and training 
providers to ensure the designed curriculum is being delivered and that 
the participants are engaged and absorbing the content. The in-class 
WOS resource facilitates early issue identification and remediation to 
ensure maximum candidate course completion.
    <bullet>  Once the training is complete, WOS then employs the 
program participants. After 90 days of employment, program participants 
receive individual health insurance with a $0 contribution to the 
premium, tuition reimbursement for up to three classes per semester, 
which includes books and fees, at a public higher education 
institution, paid holidays and vacation, and access to zero interest 
loans for unexpected financial issues. Finally, the partner company's 
sponsorship fee helps finance a stipend that is paid by WOS to the 
candidate during the academic phase prior to employment. This is 
particularly important given that veterans are often married would 
likely be less apt to focus on the training if they are worried about 
supporting a family.
    <bullet>  After the candidates are fully trained by WOS and at the 
requisite level of expertise for the assigned role, employment is 
offered by the sponsoring organization and the candidate is fully 
integrated into the work force.

    One of the key attributes of the Prudential VETalent program is its 
adaptability to a variety of roles. The program has been customized to 
accommodate a host of technology roles such as Quality Assurance, 
Database Development, Technology Operations, Security Administration to 
name a few. Other roles include, customer service and project 
coordination. The multi-phased approach to the program allows the 
sponsoring company to see the progress of the candidate in the program 
and to assess readiness at various checkpoints for eventual hire. This 
is valuable as it allows hiring managers to provide guidance to WOS for 
them to provide further training if specific skills are still in 
development.
    This program has been used with success in many of our offices 
around the country but most recently in our newly established Business 
and Technology Center in El Paso Texas. The experience we gained in 
implementing the program elsewhere made it a natural fit for our work 
in El Paso. There are many types of work done at this office and the 
adaptability of the WOS model allows its use as an effective talent 
source for this key location. Since the office opened in 2014, we have 
hosted 15 cohorts or veterans and military spouses. Of the Prudential 
staff in the El Paso Office, more than 50% are veterans or military 
spouses - the majority of which were sourced using the WOS model.
    Refinement of the selection and assessment criteria for the program 
is an ongoing effort to better select candidates with genuine interest 
and aptitude to learn and flourish in the specified roles. Our focus is 
providing opportunities for meaningful careers, rather than providing 
just a job. This is in line with Prudential's vision to help veterans 
and their families find the long-term prosperity they helped to protect 
while in service to their nation.
    Consistent with our desire to be a national leader in establishing 
and sharing best practice programs, we tested and refined the WOS 
Prudential model with the intent of sharing it with other like-minded 
companies to expand its impact beyond what Prudential could do on its 
own. As a result, in close cooperation with WOS, the program model has 
been adopted by over 60 other companies around the country.
    In support of our efforts to hire and retain veterans and military 
spouses, Prudential has found it helpful to educate hiring managers on 
the military in general and the value that veterans and military 
spouses bring to the work place. With a very small percentage of our 
nation's population having a direct connection to military service, 
there is a lack of knowledge and misconceptions that must be overcome 
by hiring managers before they will routinely consider them a viable 
source of talent. Prudential has developed an in-house training 
curriculum specifically designed to close this gap in understanding. 
Both the in-class and web based training versions have been well 
received and effective in increasing veteran and military spouse 
representation on hiring slates. The efficacy of this training approach 
is being shared via the Veterans Employment Advisory Council (VEAC) and 
the Military Spouse Employment Advisory Council (MSEAC) - both 
sponsored by the U S. Chamber Hiring our Heroes organization. These 
bodies are excellent forums for sharing of best practices with other 
public and private organizations.
    Private sector programs can effectively be built on governmental 
initiatives to help advance veteran and military spouse employment. An 
excellent example of a successful program is the Corporate Fellowship 
Program of the Hiring our Heroes organization. Implemented on the 
authority of the Skills Bridge program of the Department of Defense, 
transitioning servicemembers can intern with a prospective employer 
before they leave Active duty. Not only does this allow the fellow to 
begin the acclimation process into corporate America much earlier, but 
also gives the prospective employer an extended period to judge fit 
into company culture. These factors play a positive role in job 
satisfaction and retention. Prudential has piloted this program in two 
locations and we plan to expand participation based on our success.
    Prudential Veterans Initiative Program's mission is to establish 
sustainable programs and activities that have a positive impact on the 
lives of veterans and their families. Prudential has created an 
integrated five pillar strategy to focus our effort in the area of 
Education and Employment of veterans and military spouses. By adapting 
an effective model created by Workforce Opportunity Services, 
Prudential and WOS have created a program that has not only been a key 
enabler in our own staffing activities, but also in the staffing 
activities of other companies interested in tapping into this valuable 
talent pool. Hiring manager training as well as participation in select 
governmental hiring programs has been a significant factor in the 
overall success of achieving our mission. Active participation in bodes 
such as the VEAC and MSEAC allow Prudential to learn from others and to 
propagate our lessons learned to other like-minded organizations.
    Prudential would like to thank the Committee for its invitation to 
speak with you and share our experiences. We stand ready to work with 
others to help further expand the WOS program or any other that will be 
beneficial to Service Members, Veterans, and their families. I'm happy 
to answer any questions you may have.

                                 ---------
                                 
                  Prepared Statement of Robert Douthit
    Thank you, Chairman Arrington and Ranking Member O'Rourke for 
inviting me to testify today on ``Hiring and Retaining Veterans for the 
Modern Day Work Force.'' My name is Robert Douthit. I am the Executive 
Director of Dell EMC Customer Solution Centers for the Americas and a 
20 year United State Army Veteran. I am honored to appear before you 
today to discuss how more of our former military men and women can be 
hired, integrated and retained by civilian workforce employers.
    The U.S. Department of Defense was one of Dell's first customers 
and so we have a long tradition of working for and identifying with the 
United States Military. We appreciate the skills that veterans can 
bring to our business. At Dell, we help our customers define an 
objective. We help them identify, develop, and evaluate options to 
accomplish that objective, and once an option is selected to meet that 
objective, we focus relentlessly on execution of the option or mission 
to meet the objective just as every soldier, sailor, airman, Marine or 
Coast Guardsman is trained to do. So at Dell, veterans are a value-add 
to our workforce.

My testimony today has three objectives:

    1) To explain why Dell is a vigorous recruiter of veterans and 
their spouses;

    2) To explain how we recruit veterans and their spouses; and

    3) To offer some suggestions as to how the federal government can 
strengthen military Transition Assistance Programs (TAP) and sharpen 
existing programs to enhance veteran hiring.

    Dell stands ready to help ensure that America's veterans can 
seamlessly transition to the civilian workforce and begin serving their 
country in a different capacity or to immerse themselves in one of our 
many information and data technology businesses.

Why Dell Recruits Veterans and Their Spouses

    <bullet>  I have already noted that Dell's culture aligns with the 
competencies of veterans' with a keen focus on execution
    <bullet>  The military provides a rich source of talent, especially 
in key areas of worker under-representation and we believe that a 
diverse workforce is a dynamically effective workforce
    <bullet>  Approximately 46% of all Active duty personnel are near 
our key market locations
    <bullet>  A 2017 Student Veterans Research Brief found that when 
compared to their peers, student veterans using the Post-9/11 GI Bill 
represent the single best source of potential and current achievers in 
higher education, with nearly 100,000 now graduating annually, and that 
nearly 1.1 million student veterans are in higher education right now; 
and
    <bullet>  Finally, a 2017 Blue Star Families survey found that 28% 
of military spouses are unemployed and 55% military spouses state that 
they are underemployed. Dell would like to lower those statistics.

    Dell's Veterans & Supporters Employee Resource Group (ERG) was 
officially started in 2011, but it was informally started several years 
before then as a means for veterans within the business to connect and 
support each other. The success of the Dell Veterans and Supporters ERG 
is due to the dedicated commitment from Michael Dell to all levels of 
management throughout the company. To demonstrate that point, our 
Veterans and Supporters ERG is sponsored by Rory Read, Dell's Chief 
Operating Officer and our second most senior company official. This 
senior level management commitment is what encourages and sustains us 
to recruit veterans and - equally important - to assure veteran 
retention.
    Veteran Jobs Mission is, in our view, the leading private-sector 
solution addressing U.S. military veteran unemployment. It began in 
2011 as a coalition of 11 companies including EMC Corporation, now a 
part of Dell that was committed to hiring 100,000 veterans by 2020. 
Since its founding, the coalition has evolved to more than 230 private-
sector companies that represent virtually every industry in the U.S. 
economy. The Veteran Jobs Mission coalition has collectively hired more 
than 400,000 veterans since it began and, building on this momentum, 
has raised its goal to hire 1 million veterans among its member 
companies by 2020.
    Beyond their ongoing search for top military talent, Veteran Jobs 
Mission members are continuing to increase their focus on retention and 
career development of veterans in the private sector. This includes 
supporting veterans as they adapt to the workplace by establishing 
sponsorship and on-boarding training programs, as well as industry-
based coalition subgroups to increase collaboration among members.

How Dell Recruits Veterans and Spouses

    We utilize a number of different means and methods to recruit 
veterans and their spouses. We are active participants in career fairs 
at military bases as transitioning military members begin to look 
outside of their military careers. Dell's Veterans ERG has developed 
customized training to suit the needs of transitioning servicemembers 
on how to `Build Your Brand.'
    Dell's Talent Acquisition Team also participates in monthly partner 
calls with the Texas Veterans Commission to identify talent 
opportunities for employers seeking workers with the skills that 
military training brings. Dell partners with the Microsoft Software & 
Systems Academy which provides 18-week training for high-demand careers 
in cloud development, cloud administration, cybersecurity 
administration, and database and business intelligence administration. 
Program graduates gain an interview for a full-time job at Microsoft or 
one of our hiring partners.
    Dell is also a participant in the MBA Veteran Conference which is 
dedicated to connecting military veteran students and alumni of the 
world's top-ranked universities with employers. The annual conference 
has veterans from the top 50 MBA programs.
    Dell works with a wide variety of programs to provide training to 
transitioning servicemembers, but we also use these organizations, as I 
will describe in a moment, as sources of well-trained future Dell Team 
members. Among the military transition organizations that Dell works 
with and recruits from are:

    Onward to Opportunity-VCTP - O2O VCTP empowers highly qualified 
transitioning servicemembers and military families with the specific 
skills, certifications and training required to start successful 
civilian careers in growing industries. O2O-VCTP connects hiring 
employers to veteran talent that is prepared to meet current, real time 
labor market needs. Dell Boomi offers a free technical certification 
program to veterans in the program and the program serves as a source 
of candidates for open positions at Dell.

    Military Spouse Employment Partnership (MSEP) - The MSEP provides a 
targeted recruitment and employment solution which creates connections 
and direct access to military spouses.

    <bullet>  All Dell job opening are posted daily on the site; and
    <bullet>  Dell has quarterly progress calls with the MSEP account 
manager and provides regular updates on upcoming spouse and veteran 
hiring opportunities.

    FourBlock - Is a Career Readiness Program which equips veterans 
with professional development, career exploration, and professional 
networks

    <bullet>  Dell attends sessions at Northeastern University in 
Boston and presents student veterans with an inside look of Dell
    <bullet>  Dell is also working on expanding the FourBlock 
partnership to a new location in Austin, Texas where Dell's 
headquarters is located.

    Bunker Labs - Dell partners with Bunker Labs to connect veteran 
entrepreneurs with the proper resources to grow and expand their 
businesses. Bunker Labs is a national nonprofit whose mission is to 
inspire, educate and connect current and retired military members and 
their families to the resources needed to help them succeed as leaders 
in innovation and entrepreneurship.
    The Honor Foundation - Is a unique transition institute exclusively 
for Navy SEALs and the US Special Operations community and supporters:

    <bullet>  There are unique roles for former Special Operators 
within Dell; and
    <bullet>  Dell recently hosted Honor Fellows to spend time with our 
chief operating officer, Rory Read, and also invited Bunker Labs to 
discuss veteran entrepreneurship.

    Vetted - Is a Veteran Accelerated Management Program, a 5 month 
distance education and 2-month residence education module that 
culminates with a Capstone project followed by either placement in 
industry or small business start-up assistance. The program is hosted 
at UT Austin, Texas A&M, and Rice University. Dell recently hosted 
Vetted Fellows for a Harvard Business Case Review where Vetted Fellows 
worked with Dell executives on the business case of Michael Dell 
purchasing Dell and taking the company private.
    At Dell, we also have a social media strategy known as the `Heroes 
Among Us' Campaign, an effort to brand Dell digitally and socially in 
the veteran community to make sure that all transitioning 
servicemembers know that their skills are welcome at Dell. Our `Heroes 
Among Us Campaign' has reached 6.2 million potential readers, it has a 
111% increase year over year in ``apply'' clicks from our Military Jobs 
Page and our top post on that page was read by 716,000 readers in the 
last year.
    While these are the just the major veterans' programs that Dell 
invests in, you can see that that investment is well repaid by 
providing us with a well-qualified, well-trained pool of military 
veterans to join our team. The mutual benefits to veterans and to Dell 
are obvious.

Suggestions for Government to Improve Service Member Transition 
    Experience

    As much emphasis as the federal government puts on transitioning 
servicemembers, those same resources need to be invested in expanding 
potential employers' knowledge and awareness that there is a highly 
skilled pool of transitioning servicemembers available. With less than 
1% of our population serving in the Armed Forces, many employers simply 
don't think about veterans and the many skills that they acquire during 
their military service as being qualified candidates for the jobs that 
they need to fill. Based on our experience at Dell, we offer the 
suggestions which follow to improve or expand existing programs or to 
engage new programs that have low overhead costs, yet significant 
potential benefit to transitioning veterans and to private industry.

    <bullet>  We encourage invigorating existing military TAP's with a 
curriculum aligned more to career exploration of veterans competencies 
and skills vs. just applying for a job
    <bullet>  Consideration should be given to offering pre-TAP career 
awareness courses
    <bullet>  Consideration should be given encouraging employer 
immersion days on base with TAPs.
    <bullet>  Consideration should be given programs that train 
civilian HR / talent acquisition professionals on the value of the 
veteran and how to work with TAPs
    <bullet>  Consideration should be given allowing civilian HR / 
talent acquisition professionals to intern on-site with TAP offices
    <bullet>  Consideration should be given to allowing TAP 
professionals to come on-site to learn more about the inner workings of 
companies
    <bullet>  A program might be designed to enhance an employer's 
basic knowledge of the fundamentals of being in the military pay 
grades, ranks, housing allowance, hazardous duty pay, basic housing 
allowance, and cost associated with healthcare benefits. These all 
equate to overall compensation packages in the corporate world
    <bullet>  Just as a Military Skills Translator can be used for 
comparing military occupational skills to job types, might it be 
possible for the military to align the amount of training and the 
professional development that goes into developing a servicemember at a 
particular level such as comparing the equivalency to a high school 
diploma, associate degree, bachelor's degree, or an advanced degree? 
Companies are more in tune with that language; and
    <bullet>  The U.S. Department of Labor should establish an advisory 
board of HR professionals and talent acquisition professionals to 
assess, audit, and contribute to the overall TAP curriculum so that it 
is based on real employer needs, not theory.

    I appreciate the opportunity to appear before you today. I am happy 
to answer any questions you may have.
    Joe M. Naylor, Vice President, Policy, Government and Pubilc 
Affairs

                                 ---------
                                 
                       Statements For The Record

  Joe M. Naylor, Vice President, Policy, Government and Pubilc Affairs
    June 23, 2018

    The Honorable Jodey Arrington
    United States House of Representatives
    Committee on Veteran's Affairs
    335 Cannon House Office Building
    Washington, DC 20515

    Dear Congressman Arrington,

    Thank you for your June 13, 2018 letter inviting our Chairman and 
CEO, Mike Wirth, to discuss with the Subcommittee on Economic 
Opportunity of the House Committee on Veteran's Affairs how business 
can continue to improve employment opportunities for Veterans. 
Unfortunately, Mr. Wirth is unable to attend the hearing and has asked 
me to reply on his behalf.
    Chevron's global scope requires a wide range of talents and skills 
to create new and innovative energy solutions. The experiences and 
capabilities that our U.S. Veterans bring to the energy industry, and 
specifically Chevron, are a strong fit with our needs for a 
diversified, global workforce.
    We have a number of programs aimed at improving recruitment and 
retention of U.S. Veterans, including partnering with several external 
recruiting sites to attract candidates like Monster.com, 
Recruitmilitary.com, and organizations like the Wounded Warrior Project 
and Disabled American Veterans. We leverage our relationship with 
military.com to highlight job opportunities by matching military codes 
to open positions: https://chevron-veterans.jobs/.
    Chevron maintains a U.S. military website to inform both internal 
employees and external candidates about programs offered to Veterans, 
see: http://careers.chevron.com /find-a-job/united-states/united- 
states-military. In addition, we have Employee Network with chapters 
located that often provide on-the- job education, training and support. 
Finally, we are corporate partner of SVA's Student Veteran Success 
Corps (SVSC) and have made a commitment to provide enhanced access to 
employment opportunities for student veterans at select schools.

    Thank you for your interest in Chevron.

                                 [all]
</pre></body></html>
